<html>
<title> - A REVIEW OF THE ADMINISTRATION'S FEDERAL RESEARCH AND DEVELOPMENT BUDGET PROPOSAL FOR FISCAL YEAR 2021</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                A REVIEW OF THE ADMINISTRATION'S FEDERAL
                    RESEARCH AND DEVELOPMENT BUDGET
                     PROPOSAL FOR FISCAL YEAR 2021

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON SCIENCE, SPACE,
                             AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 27, 2020

                               __________

                           Serial No. 116-69

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


       Available via the World Wide Web: http://science.house.gov
       
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
39-835PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

             HON. EDDIE BERNICE JOHNSON, Texas, Chairwoman
ZOE LOFGREN, California              FRANK D. LUCAS, Oklahoma, 
DANIEL LIPINSKI, Illinois                Ranking Member
SUZANNE BONAMICI, Oregon             MO BROOKS, Alabama
AMI BERA, California,                BILL POSEY, Florida
    Vice Chair                       RANDY WEBER, Texas
LIZZIE FLETCHER, Texas               BRIAN BABIN, Texas
HALEY STEVENS, Michigan              ANDY BIGGS, Arizona
KENDRA HORN, Oklahoma                ROGER MARSHALL, Kansas
MIKIE SHERRILL, New Jersey           RALPH NORMAN, South Carolina
BRAD SHERMAN, California             MICHAEL CLOUD, Texas
STEVE COHEN, Tennessee               TROY BALDERSON, Ohio
JERRY McNERNEY, California           PETE OLSON, Texas
ED PERLMUTTER, Colorado              ANTHONY GONZALEZ, Ohio
PAUL TONKO, New York                 MICHAEL WALTZ, Florida
BILL FOSTER, Illinois                JIM BAIRD, Indiana
DON BEYER, Virginia                  FRANCIS ROONEY, Florida
CHARLIE CRIST, Florida               GREGORY F. MURPHY, North Carolina
SEAN CASTEN, Illinois                VACANCY
BEN McADAMS, Utah
JENNIFER WEXTON, Virginia
CONOR LAMB, Pennsylvania
VACANCY
                        
                        C  O  N  T  E  N  T  S

                           February 27, 2020

                                                                   Page

Hearing Charter..................................................     2

                           Opening Statements

Statement by Representative Eddie Bernice Johnson, Chairwoman, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................    17
    Written statement............................................    18

Statement by Representative Frank Lucas, Ranking Member, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................    19
    Written statement............................................    20

                               Witnesses:

Dr. Kelvin K. Droegemeier, Director, White House Office of 
  Science and Technology Policy
    Oral Statement...............................................    21
    Written Statement............................................    24

Discussion.......................................................    34

             Appendix I: Answers to Post-Hearing Questions

Dr. Kelvin K. Droegemeier, Director, White House Office of 
  Science and Technology Policy..................................    74

            Appendix II: Additional Material for the Record

Article submitted by Representative Lizzie Fletcher, Chairwoman, 
  Subcommittee on Energy, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    82

 
                    A REVIEW OF THE ADMINISTRATION'S
                    FEDERAL RESEARCH AND DEVELOPMENT
                  BUDGET PROPOSAL FOR FISCAL YEAR 2021

                              ----------                              


                      THURSDAY, FEBRUARY 27, 2020

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

     The Committee met, pursuant to notice, at 10:04 a.m., in 
room 2318 of the Rayburn House Office Building, Hon. Eddie 
Bernice Johnson [Chairwoman of the Committee] presiding.

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

     Chairwoman Johnson. This hearing will come to order. And 
without objection, the Chair is authorized to declare a recess 
at any time.
     Good morning, and welcome to today's hearing to review the 
President's Fiscal Year 2021 budget request for research and 
development (R&D). Dr. Droegemeier, I want to welcome you 
before this Committee for the first time in your role as 
Director of the Office of Science and Technology Policy (OSTP).
     And this is not news to you that I'm disturbed, although 
not surprised, to see such a disappointing vision for the 
future of the United States' science and engineering 
enterprise, as is laid out in the budget proposal. In the press 
release announcing the release of this budget, the 
Administration claimed that this proposal represents a 6 
percent increase for R&D. This is a creative use of math that 
has not fooled us. This budget proposal is only 6 percent 
better than last year's even-worse proposal. And, fortunately, 
Congress rejected last year's proposal and appropriated for R&D 
increases. So in truth, this Fiscal Year 2021 budget proposal 
represents a 9 percent cut to R&D funding.
     At the National Science Foundation (NSF), large increases 
for artificial intelligence (AI) and quantum science, which of 
course I support, are more than offset by cuts to all the other 
areas of research, to STEM (science, technology, engineering 
and mathematics) education, and to broadening participation, 
resulting in a 6.5 percent overall cut. While the proposal for 
NASA (National Aeronautics and Space Administration) at first 
blush appears to be a strong request, it amounts to a 
significant increase for human space exploration in large part 
at the expense of investments in research, high-quality science 
missions, and STEM education.
     At the Department of Energy (DOE), the Administration 
proposes to cut non-defense R&D programs by $4.5 billion. Once 
again, we see a proposal to eliminate the ARPA-E (Advanced 
Research Projects Agency--Energy) program, even though ARPA-E 
is praised across the political spectrum for its success.
     Finally, the proposal includes severe cuts to atmospheric 
and ocean research at NOAA (National Oceanic and Atmospheric 
Administration), which will help to inform our approach to 
climate change mitigation, and guts EPA (Environmental 
Protection Agency) assessment programs which help ensure 
Americans have access to clean air and water.
     While there are a few bright spots in this proposal, this 
request represents a disturbing and ill-advised disregard for 
the pressing issues facing this country and the urgent need for 
science and engineering solutions to help us address them. 
Fortunately, Congress will once again have the last word. I 
just wish we didn't have to engage in this dangerous game each 
year. It sends a message to our international competitors and 
our own young students and researchers that we are not serious 
about maintaining our leadership in science and technology 
(S&T).
     And finally, while the hearing is about the budget 
request, we also need to discuss the larger environment for 
science under this Administration. While the cuts are 
ostensibly proposed in the name of budget austerity, in reality 
they appear to be driven by an ideology that aggressively seeks 
to undermine faith in science and scientists, and to discount 
expertise at all levels of government and society.
     There have been some very high-profile cases of agency 
scientists and research managers being silenced by reassigning 
them to offices and jobs unrelated to their expertise. The U.S. 
Department of Agriculture (USDA) research and data services are 
being gutted. The State Department is ignoring advice from CDC 
(Centers for Disease Control and Prevention) scientists, 
putting Americans' lives at risk. The President himself tried 
to undermine the critical mission of NOAA to keep Americans 
safe during severe weather. And sadly, those cases making the 
news are just the tip of the iceberg. The silencing of experts 
is happening quietly across the Government on a daily basis.
     I welcome your testimony this morning, but I do not 
imagine that anyone will walk away from this hearing satisfied. 
While I believe you are personally committed to a thriving 
scientific enterprise, the budget proposal before us, and the 
actions taken to undercut the Federal scientific workforce, are 
not worthy of this great Nation.
     I look forward to us working together.
     [The prepared statement of Chairwoman Johnson follows:]

    Good morning and welcome to today's hearing to review the 
President's Fiscal Year 2021 budget request for research and 
development. Dr. Droegemeier, I want to welcome you before our 
Committee for the first time in your role as Director of the 
Office of Science and Technology Policy.
    That said, I am disturbed, although not surprised, to see 
such a disappointing vision for the future of the United States 
science and engineering enterprise as is laid out in this 
budget proposal.
    In the press release announcing the release of this budget, 
the Administration claimed that this proposal represents a 6 
percent increase for R&D. That is a creative use of math that 
has fooled no one. This budget proposal is only 6 percent 
better than last year's even worse proposal. Fortunately, 
Congress rejected last year's proposal and appropriated 
increases for R&D. So in truth, this Fiscal Year 2021 budget 
proposal represents a 9 percent cut to R&D funding.
    At the National Science Foundation, large increases for 
artificial intelligence and quantum science, which of course I 
support, are more than offset by cuts to all other areas of 
research, to STEM education, and to broadening participation, 
resulting in a 6.5 percent overall cut.
    While the proposal for NASA at first blush appears to be a 
strong request, it amounts to a significant increase for human 
space exploration in large part at the expense of investments 
in research, high-priority science missions, and STEM 
education.
    At the Department of Energy, the Administration proposes to 
cut non-defense R&D programs by $4.5 billion. Once again, we 
see a proposal to eliminate the ARPA-E program, even though 
ARPA-E is praised across the political spectrum for its 
success.
    Finally, the proposal includes severe cuts to atmospheric 
and ocean research at NOAA which will help to inform our 
approach to climate change mitigation, and guts EPA assessment 
programs which help ensure Americans have access to clean air 
and water.
    While there are a few bright spots in this proposal, this 
request represents a disturbing and ill-advised disregard for 
the pressing issues facing this country and the urgent need for 
science and engineering solutions to help us address them.
    Fortunately, Congress will once again have the last word. I 
just wish we didn't have to engage in this dangerous game each 
year. It sends a message to our international competitors and 
our own young students and researchers that we are not serious 
about maintaining our leadership in science and technology.
    Finally, Dr. Droegemeier, while this hearing is about the 
budget request, we also need to discuss the larger environment 
for science under this Administration. While the cuts are 
ostensibly proposed in the name of budget austerity, in reality 
they appear to be driven by an ideology that aggressively seeks 
to undermine faith in science and scientists and to discount 
expertise at all levels of government and society.
    There have been some very high-profile cases of agency 
scientists and research managers being silenced by reassigning 
them to offices and jobs unrelated to their expertise. The U.S. 
Department of Agriculture research and data services are being 
gutted. The State Department is ignoring advice from CDC 
scientists, putting American lives at risk. The President 
himself tried to undermine the critical mission of NOAA to keep 
Americans safe during severe weather. And sadly, those cases 
making the news are just the tip of the iceberg. The silencing 
of experts is happening quietly across the government on a 
daily basis.
    Dr. Droegemeier, I welcome your testimony this morning, but 
I do not imagine that anyone will walk away from this hearing 
satisfied. While I believe you are personally committed to a 
thriving scientific enterprise, the budget proposal before us, 
and the actions taken to undercut the federal scientific 
workforce, are not worthy of this great Nation.

     Chairwoman Johnson. I now recognize Mr. Lucas, our Ranking 
Member.
     Mr. Lucas. Thank you, Chairwoman Johnson, for holding 
today's hearing. Good morning, and welcome, Dr. Droegemeier. 
It's always nice to have both a friend and a fellow Oklahoman 
before the Committee.
     Under Dr. Droegemeier's leadership, the White House Office 
of Science and Technology Policy has undertaken major efforts 
to advance our Nation's leadership in the industries of the 
future. At the same time, OSTP is taking action to ensure the 
research environment in the United States is safe, secure, and 
welcoming to the brightest minds and ideas.
     I'm looking forward to hearing about updates on the great 
progress OSTP is making on our Committee's research priorities, 
including standing up the National Quantum Institute, advancing 
a national artificial intelligence agency, developing clean 
energy solutions, and promoting the bioeconomy.
     I also appreciate the opportunity to hear about progress 
being made on other issues important to the Committee, from 
protecting American research from foreign influence to 
addressing sexual harassment in science.
     I commend the Administration for establishing the Joint 
Committee on the Research Environment (JCORE) to tackle these 
and other issues affecting the American scientific enterprise. 
This new interagency committee demonstrates a commitment to 
ensure that the American scientific enterprise remains a model 
for the world.
     The President's Fiscal Year 2021 budget request includes 
bold proposals for ensuring American leadership in priority 
areas, including artificial intelligence, quantum information 
science, and space exploration. The request proposes a doubling 
of funding for AI and quantum over the next two years and sets 
us on course to return astronauts to the Moon by 2024.
     These investments are in line with legislation that I 
introduced last month to double basic research over the next 10 
years and invest in R&D for the industries of the future that 
will keep America competitive.
     This Committee has a long, bipartisan record of support 
for funding fundamental research and development. Our challenge 
in Congress is to set funding priorities that ensure America 
remains a leader in science and technology, while also 
balancing the government's budget.
     I very respectfully remind my colleagues on both sides of 
the aisle that the President's proposal is just the start of 
the budget process. Ultimately, Congress decides how the 
government will be funded.
     Unfortunately, for the second year in a row it appears the 
majority in the U.S. House will fail to produce a budget. It's 
imperative that we work together in a bipartisan, bicameral 
fashion to advance a budget that funds our Nation's priorities 
while acknowledging our very real fiscal challenges.
     I know that Dr. Droegemeier believes, as I do, that 
American superiority in science and technology is fundamental 
to our economic competitiveness, our national security, and our 
way of life. I appreciate your commitment to advancing science 
in America, and I'm looking forward to your testimony today.
     And with that, Madam Chair, I yield back.
     [The prepared statement of Mr. Lucas follows:]

    Thank you, Chairwoman Johnson, for holding today's hearing. 
Good Morning and welcome Dr. Droegemeier. It's always nice to 
have both a friend and a fellow Oklahoman before the Committee.
    Under Dr. Droegemeier' s leadership, the White House Office 
of Science and Technology Policy (OSTP) has undertaken major 
efforts to advance our nation's leadership in the industries of 
the future. At the same time, OSTP is taking action to ensure 
the research environment in the U.S. is safe, secure and 
welcoming to the brightest minds and ideas.
    I am looking forward to hearing updates on the great 
progress OSTP is making on our Committee's research priorities, 
including standing up the National Quantum Initiative, 
advancing a national Artificial Intelligence agenda, developing 
clean energy solutions, and promoting the bioeconomy.
    I also appreciate the opportunity to hear about progress 
being made on other issues important to this Committee--from 
protecting American research from foreign influence to 
addressing sexual harassment in science.
    I commend the Administration for establishing the Joint 
Committee on the Research Environment (JCORE) to tackle these 
and other issues affecting the American scientific enterprise. 
This new interagency committee demonstrates a commitment to 
ensuring the American scientific enterprise remains a model for 
the world.
    The President's Fiscal Year 2021 budget request includes 
bold proposals for ensuring American leadership in priority 
areas, including artificial intelligence, quantum information 
science, and space exploration. The request proposes to double 
funding for AI and Quantum over the next two years and sets us 
on course to return astronauts to the Moon by 2024.
    These investments are in line with legislation that I 
introduced last month to double basic research over the next 10 
years and invest in R&D for the industries of the future that 
will to keep America competitive.
    This Committee has a long, bipartisan record of support for 
funding fundamental research and development. Our challenge in 
Congress is to set funding priorities that ensure America 
remains a leader in science and technology, while also 
balancing the government's budget.
    I will remind my colleagues on both sides of the aisle that 
the President's proposal is just the start of the budget 
process. Ultimately, Congress decides how the government will 
be funded.
    Unfortunately, for the second year in a row it appears the 
Majority in the House will fail to produce a budget.
    It is imperative that we work together in a bipartisan, 
bicameral fashion to advance a budget that funds our nation's 
priorities while acknowledging our very real fiscal challenges.
    I know that Dr. Droegemeier believes, as I do, that 
American superiority in science and technology is fundamental 
to our economic competitiveness, our national security, and our 
way of life.
    I appreciate your commitment to advancing science in 
America and I'm looking forward to your testimony today.
    I yield back.

     Chairwoman Johnson. Thank you, Mr. Lucas.
     If there are members who wish to submit additional opening 
statements, your statements will be added to the record at this 
point.
     At this time I'd like to introduce our witness. Our 
witness today is Dr. Kelvin Droegemeier. He is the Director of 
the White House Office of Science and Technology Policy or 
OSTP. And as Director of OSTP, he serves as the President's 
science advisor and leads OSTP in its coordination of science 
and technology initiatives across the Federal Government.
     Before joining the White House, he served as Vice 
President of Research and Regents Professor of Meteorology at 
the University of Oklahoma. He served two 6-year terms on the 
National Science Board having been nominated by President 
George W. Bush and President Barack Obama.
     As our witness should know, you will have 5 minutes for 
your spoken testimony. Your written testimony will be included 
in the record for the hearing. And when you have completed your 
spoken testimony, we will begin the round of questions. Every 
member will have 5 minutes to question the witness.
     So now I will ask Dr. Droegemeier to make his statement.

              TESTIMONY OF DR. KELVIN DROEGEMEIER,

       DIRECTOR, OFFICE OF SCIENCE AND TECHNOLOGY POLICY

     Dr. Droegemeier. Thank you so much, Chairwoman Johnson. 
Good morning to you and good morning to Ranking Member Lucas 
and Members of the Committee. It is my great privilege to be 
with you today to discuss the President's budget for science 
and technology research and development in Fiscal Year 2021.
     You know, I've had the privilege of working with this 
Committee for many years, and I really deeply appreciate your 
support for science, your bipartisan support.
     In this month's State of the Union address President Trump 
declared--he said, we are pioneers who look at tomorrow and see 
unlimited frontiers just waiting to be explored. You know, this 
reminded me of the words written by Vannevar Bush, who was 
President Roosevelt's de facto science advisor. In 1945, 75 
years ago, Dr. Bush wrote, and I quote, ``The pioneer spirit is 
still vigorous within this Nation. Science offers a largely 
unexplored hinterland for the pioneer who has the tools for the 
task. The rewards of such exploration both for the Nation and 
the individual are great,'' unquote.
     You know, these words ushered in the modern research 
enterprise that we have today, and now, 75 years later, America 
is the unquestioned global leader in science technology. The 
Federal Government, the private sector, academia, and nonprofit 
organizations are all working together to leverage massive R&D 
investments, about $580 billion in 2018--I believe it's over 
$600 billion today--to capitalize on talents from every ZIP 
Code across America and from every country around the globe. 
And the purpose is to build the greatest discovery engine and 
innovation engine in the history of the world right here in 
America. And, as Dr. Bush predicted, the rewards indeed have 
been very great.
     Now, although America is the S&T leader today, undisputed, 
continued leadership is absolutely not guaranteed. In fact, as 
the coronavirus threat illustrates, the importance of our 
leadership, American S&T leadership, is only going to grow more 
pronounced in the decades to come.
     The Fiscal Year 2021 budget demonstrates the Trump 
Administration's commitment to American S&T leadership by 
investing $142.2 billion in Federal R&D. This does represent a 
significant 6 percent increase compared to the President's 
Fiscal Year 2020 budget last year.
     The President's budget prioritizes the critical industries 
of the future, which are--and I think you heard these a lot--
artificial intelligence, quantum information science, 5G and 
advanced communications, biotechnology, and advanced 
manufacturing. These industries promise to open new frontiers 
in advanced computing and sensing and computation, advanced 
medical diagnostics. They promise to create high-paying jobs 
and also to transform the way that we as Americans communicate, 
travel, and also stay secure.
     Now, AI and quantum in particular hold tremendous 
potential as they intersect basically with every field of 
science and technology. The budget, as you know, includes major 
increases in quantum and nondefense AI research and development 
spending as part of the President's commitment to double the 
nondefense investment in these areas by fiscal 2022. The budget 
also includes investments that will equip more Americans with 
the skills necessary to support and advance AI and quantum, as 
well as the tens of millions of other jobs that require STEM 
know-how.
     Beyond these particular investments, the budget focuses on 
achieving sustainable deep exploration beginning with returning 
to the moon as a launchpad for the mission to Mars. Research 
and partnerships in ocean science and technology also are an 
Administration priority, and the budget advances systematic 
ocean mapping and research so that our Nation can both better 
understand as well as utilize our vast ocean resources.
     The Administration also recognizes--and I really want to 
underscore this point--that leadership not only requires 
strategic R&D investments but also, as Ranking Member Lucas 
mentioned, research environments that reflect our American 
values. To that end, nearly 10 months ago I launched the 
National Science and Technology Council's Joint Committee on 
the Research Environment or JCORE. JCORE is doing something 
quite unique. It's taking a whole-of-nation approach to develop 
policy recommendations and other suggested actions on four 
interrelated topics: first, strengthening the security of the 
American research enterprise; second, creating safe and 
inclusive research environments; third, reducing administrative 
workload on our federally funded researchers; and finally, 
improving rigor, integrity, and reproducibility in research.
     I wanted to specifically mention our research security 
efforts, as I know this topic is of particular interest to many 
of you. The JCORE Subcommittee on Research Security is engaging 
every sector of our scientific community to protect our 
research enterprise while also ensuring the openness that it 
needs to thrive.
     During the past several months, I have personally met with 
institutional leaders and faculty and students visiting several 
universities across the country to discuss these issues. And 
I've also met with allies abroad who are responding to similar 
challenges. We're also working very, very closely with your 
colleagues in Congress, which has shown very strong bipartisan 
support for JCORE. I especially want to thank you, Chairwoman 
Johnson and Ranking Member Lucas and others of you on the 
Committee, for engaging with OSTP on this very important set of 
issues.
     In conclusion, the Nation's R&D investments and policies 
must reflect and address urgent opportunities and challenges 
confronting us and also make use of every asset at our 
disposal. Federal investment is only one part of a much larger 
enterprise that unites, inspires, and rallies people from every 
organization from multiple sectors to a single common cause, 
and that is to improve the health, security, and prosperity of 
our great Nation. These are indeed times of unlimited 
exploration potential, new frontiers waiting to be explored, 
and the President's budget, in concert with other actions that 
I have mentioned and I'm sure we'll discuss, ensures that 
America will continue to lead the way.
     Thank you so very much, and I look forward to your 
questions.
     [The prepared statement of Dr. Droegemeier follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
     Chairwoman Johnson. Thank you very much. We will now start 
our first round of questions.
     Dr. Droegemeier, in reference to climate change, you have 
frequently said more research on the topic is needed. While the 
existence of and human role in climate change are already 
clear, we welcome further research in the detailed dynamics 
about climate and how it is changing. However, this 
Administration has proposed to cut the Department of Energy's 
Atmospheric System Research program in the Office of Science by 
54 percent and the Environmental System Science program by 69 
percent.
     Similarly, climate change research is eliminated at EPA 
with the Air and Energy Research program being cut by 65 
percent and NOAA's research office being cut by 40 percent. Why 
are you proposing massive cuts to climate science when you 
admit yourself that it is a topic that needs more research to 
expand our understanding? Does that not strike you as 
contradictory or illogical?
     Dr. Droegemeier. Well, thank you for that very good 
question. And, as you say, we know the broad contours of the 
impact of greenhouse gases. We know that they are increasing. 
We know that there is a relationship with that and the increase 
of surface temperature. We don't need really super 
sophisticated models to tell us that. In fact, the very simple 
models, simple theories tell us that.
     What we don't know are, for example, how that really has 
local and regional impacts, the rate of the warming, a lot of 
the details. And so a climate scientist will tell you that, you 
know, we really need better fidelity. The way that we are 
operating our models today is not sufficient to provide the 
scientific guidance that's really needed to address the 
challenges that you mention, especially the local and regional 
challenges.
     If you look at the U.S. Global Change Research program 
budget, it's been about $2.2, $2.4 billion a year for the past 
several years. This is in--depending on constant dollars or 
current dollars, however you look at it. So the investments 
have been pretty robust. And I think the real focus now is to 
take our assets and really demonstrate a focus on how do we get 
to higher spatial resolution, which is something that DOE is 
doing through the acquisition of major new computers. That's 
one of the big limitations of our models is that we are running 
them at resolutions that cannot capture the details of clouds 
and precipitation, high-level clouds, the hydrologic cycle. The 
physics are there in the models, but we actually have to sort 
of run them at very coarse resolutions, which mean we don't 
really take advantage of the physics.
     So the investment in high-speed computation or high-
capacity computing is really important, so a lot of the work 
that's been done in building the models is already an 
investment that's a sunk cost. Now we really need to utilize 
them and run them on these faster machines. And I think if we 
do that along with some other changes and, you know, 
improvements of physics using real data and things like that, 
we will work to eliminate the biases in the model and the 
drifts and things which are actually quite large. But that 
doesn't mean that it discounts what we already know about the 
warming of the surface temperatures globally, so we really need 
to do that to advance the climate science.
     Chairwoman Johnson. Thank you very much. I know that you 
are aware that in order to keep pace, we've got to make sure 
that we have the professional people available and skilled to 
do it, so I was really very disappointed to see that the 
President's budget proposal includes significant cuts to STEM 
education and broadening participation activities. At NSF the 
STEM education activities funded out of the research and 
related activities account are cut by 36 percent.
     The Robert Noyce Teachers' Scholarship program is cut by 
1/3, and the HBCU (Historically Black Colleges and 
Universities) Excellence in Research program is cut in half. 
The Hispanic-Serving Institutions program is cut by nearly 70 
percent, and the Tribal Colleges and University program is cut 
by 17 percent. At DOE the Workforce Development for Teachers 
and Students program is cut by 27 percent. And, once again, the 
President calls for the elimination of NASA's Office of STEM 
Engagement.
     I simply cannot understand the rationale behind the budget 
proposal that includes these large increases for technologies 
to drive industries of the future with huge cuts to programs 
that would help educate and train people to work in these 
industries. Can you help us understand why we have such large 
cuts critical to STEM education and why these cuts align with 
the STEM Education Strategic Plan of the OSTP published at the 
end of 2018?
     Dr. Droegemeier. Right. Thank you for that. So you 
mentioned the STEM plan. I think it's really an extraordinarily 
good plan. It's got three pillars, STEM-literate society, 
increasing STEM workforce, and the third one is broadening 
participation. As a STEM educator myself, somebody who's worked 
very hard and is passionate about STEM education, I think it 
really has the opportunity to move the needle.
     The U.S. Government spends about $2.9 billion a year 
across about 160-some STEM programs. There's a lot of wonderful 
flowers blooming out there. We also have nonprofits, for-profit 
companies investing very, very heavily in STEM. What we are 
trying to do through this plan is create a national alignment, 
a direction of where we're going as a nation, and it started by 
bringing about 200 people to Washington from every State, about 
two or three people from every State and territory, brought 
them to Washington, talked about where we want to go. They're 
teachers, superintendents, principals, parents, so on, where do 
we want to go and how do we align ourselves with that?
     So when you look at these programs, you realize that there 
are a lot of STEM programs out there, but they're not 
coordinating with one another. We don't get this economy of 
scale. There's a bunch of things happening, but we're not 
coordinating effectively. And that's one of the things that 
plan has done and is doing. And in fact we just released the 
year 1 annual report for that, and we have a matrix that 
describes how we're doing, and we're sort of holding ourselves 
to that report card.
     The point about the NASA office, NASA will continue to 
engage a lot of STEM programs. That office is extremely 
important, but actually NASA activities and, you know, what 
NASA does is actually used by many, many groups and inspires 
students to come into STEM fields and so on. So NASA is 
focusing its STEM activities on things directly related to its 
mission directorates. It's not giving up on STEM at all. It's 
really focusing on the things that are specifically related to 
its missions and partnering with NSF, with nonprofits, and with 
other organizations to take all of the wonderful resources and 
assets that NASA has and make them available to build these 
other programs. The Challenger Center is a great example of 
that.
     So I think, you know, you think about NASA overall, it 
really is sort of a big STEM program in and of itself, and it's 
quite inspirational but also provides tremendous resources so 
that other programs can thrive and grow. So I think this is 
really a focusing, a bringing together of disparate STEM 
programs into a much more critical mass and really continuing 
to leverage this nearly $3 billion-a-year investment.
     Chairwoman Johnson. Thank you very much.
     Dr. Droegemeier. Thank you.
     Chairwoman Johnson. Mr. Lucas.
     Mr. Lucas. Thank you, Madam Chair.
     Doctor, our Committee has been very focused on ensuring 
the security of our research enterprise and addressing foreign 
influence while also ensuring that we maintain the open science 
enterprise that's made us the world's leader in science and 
technology. Could you elaborate on how OSTP is implementing the 
Securing America's Science and Technology Act and what other 
actions you're taking to address this threat?
     Dr. Droegemeier. Yes, sir. Thank you, Ranking Member 
Lucas. For those of you--I think you're all familiar with it 
but maybe folks in the audience, this act tasks OSTP with 
creating an interagency working group to do exactly what the 
Ranking Member mentioned and also work with the National 
Academies to stand up a set of roundtables to basically have 
conversations about addressing these important issues.
     So, as I mentioned in my opening statement, back May 6 
actually, almost 10 months ago, we started this thing called 
the Joint Committee on the Research Environment, one of the 
main dimensions of which is the issue of research security. So 
the key here is balancing the openness of our research 
enterprise, which is so important for our success today but 
also going forward with the fact that we are in a different 
environment today with countries, in particular China, that 
really did not hide their intentions about undermining our 
research enterprise. Taking unfair advantage, creating unlevel 
playing fields, and so on.
     So the key here is to make sure that we put in place 
policies that focus on addressing those issues while not unduly 
tying our own hands or increasing the administrative workload 
so high that we now have researchers instead of spending 44 
percent of their time on administrative activities, they're 
spending 60 or 70 percent of their time.
     I can tell you that universities are taking a lot of 
actions on this. We are developing policy mechanisms. We 
actually have some policies drafted right now. They're in a 
very good spot. A year ago I'm not sure I could have said that, 
but I think they've gotten to a very good spot of providing the 
appropriate balance between protecting and promoting our 
research enterprise. We're going to be rolling those things 
out. We're also working on best practices to universities, 
which are taking a lot of action, as I say, on their own, and 
also helping educate the community about what the threats are 
and what the challenges are.
     Personally, I see this as a great way to lean forward with 
American values because, you know, at the end of the day when 
you do research--Dr. Foster knows this very well. When you do 
research, you sign up to behave ethically, to have an openness, 
to share, to treat people with respect. And folks that come 
here a lot of times from other countries, that's not the 
environment they grew up in, but that's American values. That's 
who we are as Americans. But it's also who we are as a research 
enterprise.
     So it's a great opportunity for us to shine a bright light 
on what integrity looks like, what playing by the rules looks 
like, and it doesn't matter if you're from Oklahoma like Mr. 
Lucas and I are or if you're from some other country. If you 
come here, you need to play by the rules. And if you don't, if 
you intentionally break the rules, once you understand them and 
are taught the rules, you don't belong in our research 
enterprise, and we don't want you here because that means 
you're not following the rules of integrity that the taxpayers 
depend on us to follow. So we're very, very serious about this, 
and we've been going--we've been meeting twice a week for 10 
months on this. We're driving the agenda very hard.
     And I really appreciate your support on this. Members of 
Congress have been extremely supportive. You've put several 
bills on the table. I think the bill that the Ranking Member 
mentioned is a very thoughtful bill, and we're moving 
aggressively forward, and also engaging the National Academies.
     Mr. Lucas. Following along with the discussion that the 
Chair entered into on STEM education, I think you know, Doctor, 
I introduced the Rural STEM Education Act last fall, which is 
intended to address the many challenges rural schools face in 
providing quality STEM education. Could you please share how 
the Administration's 5-year strategic plan for STEM education 
will improve engagement in underserved communities, including 
rural students like Oklahoma?
     Dr. Droegemeier. Absolutely. It's a great question. And 
that second pillar of the STEM Education Strategic Plan, which 
again was put in place as a whole-of-nation approach, bringing 
everybody to the table so that when it was issued people in 
local school districts and rural areas could say, you know, I 
see myself in that. I see how I could engage with that.
     So one of the ways we do that is that pillar of broadening 
participation. That doesn't just mean, you know, race and 
gender and things like that. It means also rural, every ZIP 
Code in America. So one of the ways that we're doing that is 
engaging through things like apprenticeships. You know, STEM 
education isn't just degrees. It's apprenticeships. It's 2-year 
degrees. It's technical colleges, schools that give you a 
skilled technical workforce, which is very, very important, 
especially for rural areas.
     So we're working very much on that, also bringing 
broadband to rural areas, that's very important for education, 
for STEM skills, learning online, and things like that, so the 
American Broadband Initiative, of which OSTP is a part, the 
work that the FCC (Federal Communications Commission) is doing 
to put out the $20 billion in the--I think it's called the 
Connect America Initiative and other initiatives where they're 
taking money from the auctions to build connectivity to rural 
America. And this is a huge priority for the President, really 
help empower education in the rural communities. So it's 
really, really important that we do that, that no part of 
America gets left behind.
     The challenges we face in science and technology are 
great. The opportunities are great. We have to have everybody 
at the table, anybody who wants to participate has to be able 
to do that, and we're very committed to that.
     Mr. Lucas. Doctor, I hope that one of my colleagues in a 
little bit will ask the question about satellite data and 5G 
and weather forecasting. I'm out of time, but I'd like to hear 
from you about that----
     Dr. Droegemeier. Sure.
     Mr. Lucas [continuing]. Shortly. Thank you.
     Dr. Droegemeier. You bet. Thank you.
     Mr. Lucas. I yield back.
     Chairwoman Johnson. Thank you very much. Ms. Lofgren.
     Ms. Lofgren. Thank you very much, Doctor. I, like the 
Chairwoman, I have many questions about the budget, but I'll 
limit myself to two. The first has to do with the fusion energy 
project ITER (International Thermonuclear Experimental 
Reactor). As you're aware, there were problems, a management 
problem a number of years ago. Dr. Bigot came in by all 
accounts and straightened them out, gotten the project back on 
track.
     We have received--had received estimates for what our 
contribution should be really to minimize cost to the taxpayer 
but also to keep the project on track, and the requested budget 
for the last several years has not met those estimates. The 
Committee has been trying to get current estimates, and the 
Department of Energy actually refused to send them to us.
     So I'm wondering if you, within the next week--since we 
have to make decisions on this, could you provide the Committee 
with updated estimates for the resources that are going to be 
required from the United States in the next fiscal year to 
maintain ITER's current schedule and to minimize its total 
project cost? Is that possible for you to do?
     Dr. Droegemeier. I will sure do everything I can to help. 
I will tell you I've worked very closely with the Department of 
Energy with Paul Dabbar, the Under Secretary, with Chris Fall, 
the head of the Office of Science, on ITER in particular, and 
we've looked at that project. And, you know, we're asking, OK, 
how do we move forward with it? It is a big, very expensive 
project, big goals, and so on, but we have commitments. We 
actually have treaty obligations with that project----
     Ms. Lofgren. Yes, we do.
     Dr. Droegemeier [continuing]. So we looked at that very 
carefully, and I'll be as helpful as I possibly can.
     There are lots of interesting opportunities and other 
projects that are of smaller scale that look at fusion, that 
are pretty far along actually, but I think, you know, we have 
to be mindful of commitments we make to international partners, 
so----
     Ms. Lofgren. Well, that's an important commitment, but I 
support the entire fusion budget.
     Dr. Droegemeier. Right.
     Ms. Lofgren. There are important developments going on 
funded not only by the science budgets but by NNSA (National 
Nuclear Security Administration) and--but the payoff ultimately 
is so monumental----
     Dr. Droegemeier. Yes.
     Ms. Lofgren [continuing]. We should not falter in this 
quest.
     Dr. Droegemeier. I think fusion is the future, the long-
term future. It's very, very bright, so yes. Thank you. I'll be 
happy to be helpful wherever I can. Thank you.
     Ms. Lofgren. Let me ask you this. An issue I've been 
interested in for many years is open access, public access to 
federally funded research papers. And, as you know, we have 
kind of a convoluted system. Obviously, everybody wants peer 
review, but it's run by private for-profit companies, and so 
the federally funded research really doesn't get available.
     Now, we've made some progress, the 12-month rule. As 
you're aware I'm sure there were a lot of inquiries made in 
December from various scientific societies, publishers, 
stakeholders about the issue of public access. And last week, 
OSTP issued an RFI (request for information) on access to 
publications, data, and code. Now, publications I think is 
quite a different issue than the data and code question, and 
there's a very short timeframe. I'm wondering if it might be 
possible to extend the comment period at least to the 
publication issue because it is--I know what I think, but it is 
a complex issue, and I think that would help get the full flow 
of information in.
     Dr. Droegemeier. Sure.
     Ms. Lofgren. The other thing, I don't know if you can 
answer this yet, but is there consideration to change the 12-
month period to make it a shorter time period?
     Dr. Droegemeier. So we have a subcommittee on Open Science 
within the National Science and Technology Council. It's been 
there for quite a while. And that's the mechanism by which we 
convene not only the interagency but the broader community. And 
we've had up to today about 100 or so meetings with various 
groups, publishers and researchers and so on. But you may know 
that recently we started holding roundtables, a little bit more 
visibility in terms of what we're doing, and the RFI absolutely 
to get the community's input.
     It's an incredibly complicated landscape, as you 
absolutely are right in saying, and we want to make sure that 
since this is such an important aspect of the research 
enterprise and that we kind of broadly call it scholarly 
communications--you say data, publications, code, things like 
that--that we want to make sure that any changes that we might 
make or continuations are done with--in the most thoughtful way 
with the most information we could possibly have because this 
is foundational to our enterprise for intellectual property, 
for credit that faculty and other researchers get. So we're 
absolutely working together all of that information.
     One thing I can tell you is that when you get different 
folks in the room, they learn a lot that they kind of thought 
they already knew, and there were some surprises in these 
meetings. It was like, wow, I didn't realize that that's the 
way it worked, yet people seem to have entrenched positions. So 
I'm really pleased that people are open-minded about learning 
about this complicated enterprise. And I'm really personally 
committed to getting it right because, as a professor, this is 
truly important to me, but I know how important it is to 
research and to the world. So thank you for your support. Happy 
to keep you updated on that.
     And extending the RFI, we do that a lot of times, and so 
my philosophy is if you go out for an RFI, you take a lot of 
time, people are putting time in doing it, so make sure we give 
enough time to get the thoughtful input. Let's not rush it. So 
we're certainly open to that.
     Ms. Lofgren. Thank you very much.
     Dr. Droegemeier. Sure.
     Ms. Lofgren. My time is expired, Madam Chairwoman.
     Chairwoman Johnson. Thank you. Mr. Posey.
     Mr. Posey. Thank you very much, Madam Chair, for holding 
this hearing today. These are exciting times for space. It's 
exciting to have Jim Bridenstine as our NASA Administrator. 
We're thrilled to have Bob Cabana back to head up the Kennedy 
Space Center. Thank you for that. It's exciting to have a 
President that loves space. That's clear. And it's thrilling to 
have a Vice President who loves space and heads up the National 
Space Council and see that active again and moving forward. And 
it's especially great to see that space is still largely a 
bipartisan issue and probably the least daggers in this 
Committees of all the Committees in the House. And that's 
really a good thing.
     Not many things were recommended for an increase like the 
NASA budget was, and we're all grateful to you for that. And 
pleased to see that you want to continue to make significant 
investments in our Nation's space program. Most of the increase 
will go toward the Artemis program, which is wonderful, and I 
think we're all excited about that.
     But we do want to talk about some other objectives that 
are important, and that is ground support systems. We've always 
in the past received strong funding for ground support systems, 
and we'll work to continue to do that. You can have the best 
rockets and the best people on those rockets and the best 
people making those rockets----
     Dr. Droegemeier. Right.
     Mr. Posey [continuing]. But if you don't have the ground 
support systems in place, nobody goes anywhere. And we don't 
want to be on track for that. And it's a possibility we might 
be on that track, and we need to make necessary adjustments to 
that to make sure our ground support systems are going to 
actually help us go back to the moon and then ultimately to 
Mars.
     In today's strong economy and the huge job demand, space, 
like most other industries, is a little bit in a bad spot for 
recruiting of skilled workforce people. So we often hear about 
the importance of internships and apprenticeships in STEM, 
which the Administration's 5-year plan also identified, and I'm 
just wondering if you'd speak to us about the steps the office 
is taking and the appropriate Federal agencies are doing to 
support such activities, including those working in skilled 
trades who don't require a 4-year degree.
     Dr. Droegemeier. No, thank you for that. And you're spot 
on. One of the things that I talk about and I really 
increasingly am seeing in the country is what I call kind of a 
seamless STEM enterprise. And so, you know, sometimes research 
universities would look at a 2-year college and say, you know, 
well, kids that come to the university are not very well-
trained, so we have to do a lot of remediation. We need to all 
work together. We need to all lift each other up.
     And so, for example, I did a visit recently down to 
Virginia to a company that builds all the nuclear reactors and 
fuel and everything for our Navy submarines and ships. The 
people that were working on doing incredible things with 
welding and so on, none of them had a 4-year degree. They were 
all skilled tradespeople working with incredible computers.
     So things like apprenticeships, programs like the National 
Council of the American Worker; the reskilling and upskilling 
of individuals who might be a traditional arc welder with an 
acetylene torch now will be running a computer. And you say, 
well, gee, is it going to displace that person? No, it's going 
to put them to a new level of economic earning because we still 
need their skills in operating that equipment because they're 
still welding at the end of the day. The robot is not doing it 
all on its own. There has to be somebody there guiding it 
along.
     And so I think this is a tremendous opportunity with these 
industries of the future, AI and advanced manufacturing, 3-D 
printing, and things like that will really enable a lot of 
capabilities. So the apprenticeships programs, the skilled 
technical workforce, the National Council of the American 
Worker, the pledge to the American Worker that Ivanka is 
championing, upskilling and reskilling activities are really 
extraordinary.
     And, you know, STEM is not just going to college and 
getting a STEM degree. It's the whole enterprise. And somebody 
who's getting, say, in the skilled technical job maybe goes to 
a 2-year school, maybe later on they get a 4-year degree, but 
if they don't, they can come out starting to make $70-80,000 a 
year. That's a pretty good living. And so I think the President 
has been very, very clear and strong on this point of making 
sure that we don't disenfranchise those folks but we continue 
to support that type of activity because we need a whole 
spectrum of skills in this country.
     Mr. Posey. Well, I'm very pleased to hear you say that, 
and, you know, an economy where you have more job openings than 
you have people looking for work increases the economic value 
of every single person in the workforce. And of course we want 
to continue that.
     Dr. Droegemeier. Right.
     Mr. Posey. I see my time is expired, and I yield back, 
Madam Chair.
     Dr. Droegemeier. Could I just say one quick thing? You 
mentioned the ground systems. You look at big experiments like 
LIGO (Laser Interferometer Gravitational-Wave Observatory) and 
telescopes and stuff. People have to run those systems. They 
have to manage, maintain the HVAC (heating, ventilation, and 
air conditioning) systems on things like that. A lot of those 
people don't have a degree, they don't need a degree, but you 
need their tremendous skills. And so those folks are just as 
important to science as the scientists actually doing the work. 
Sorry. Thanks.
     Mr. Posey. Thank you.
     Chairwoman Johnson. Thank you very much. Mr. Lipinski.
     Mr. Lipinski. Thank you. First question, very simple and 
easy, Doctor. How do you pronounce your last name?
     Dr. Droegemeier. I pronounce it Droegemeier. My parents 
pronounce it Drag Meyer, and nobody can ever spell it right 
that way, so----
     Mr. Lipinski. All right. So, Dr. Droegemeier, I am--I've 
been very active on the issue of climate change for, you know, 
my entire 15 years here in Congress, and I think we're finally 
getting some--the concern has been raised so much that I think 
maybe we are going to make--potentially have some action soon. 
But I share the Chairwoman's concerns about the cuts in the 
research funding. I'm also concerned about the cuts to the 
Department of Energy's Energy Efficiency and Renewable Energy 
program and the ARPA-E program because I think those are 
programs that can help tremendously to advance us to new clean 
fuel sources, and I think that's critically important. Do you 
share my concern that climate change is something significant 
that we need to address?
     Dr. Droegemeier. Well, thank you, Mr. Lipinski. And I want 
to thank your staff for working with me several years ago 
before I came to the White House on a bill that you had 
dropped. I don't know if it ever went anywhere, but it was to 
look at IP (intellectual property) at universities and what 
buildings--so Sofya Leonova, who used to work for you, she was 
terrific, so thank you for that.
     One of the things that we've highlighted in the OMB 
(Office of Management and Budget) OSTP yearly guidance memo on 
R&D priorities was predictability of the Earth system. And it's 
really important in terms of understanding climate projections, 
weather predictions, things like that, how predictable are 
these sorts of things? But, as I mentioned, you know, the 
sophisticated models that we have today are--the way we have to 
operate them is really well below the capabilities that are 
needed to guide decisions about coastal sea-level rise, things 
like that, or local changes in climate extreme events, and so 
on, so we really feel, No. 1, predictability is important but 
also providing the assets and resources we need to actually 
operate these models and do the socioeconomic scenarios that 
really drive climate change models. We don't really understand 
much about those. We're moving into a new era now with so-
called SSPs (Shared Socioeconomic Pathways), which I think will 
be quite helpful, but we don't even assign a likelihood to any 
of those. So there's a lot of good work, and I think it could 
be enabled by artificial intelligence, for example.
     I visited DOE not long ago and really looked at a lot of 
the good work they're doing in energy storage technology. They 
have a Coal FIRST program. They have an Energy Storage Grand 
Challenge. They're doing really amazing things. But what really 
struck me was what's happening in the private sector. There's a 
company that is now developed a capability to----
     Mr. Lipinski. But wouldn't it be helpful with those 
programs that you said are great programs and I agree----
     Dr. Droegemeier. Yes.
     Mr. Lipinski [continuing]. The private sector is also 
important, but you know, ARPA-E was created because there are 
things that the private sector will not invest in----
     Dr. Droegemeier. Right.
     Mr. Lipinski [continuing]. That the public sector must. 
But let me--so I want to move on because it's sort of--and 
related to that, can you describe how the President's budget 
will support the development of Aurora and other similar 
supercomputer efforts? Because I think that fits in with what 
you're talking about here, Aurora at Argonne National Lab, 
which I represent.
     Dr. Droegemeier. Yes, absolutely. Aurora is a high 
priority. It's coming in, what, in a couple of years I believe, 
and then Frontier will replace the Summit system at Oak Ridge 
National Lab, and I think they're vying in a friendly 
competition between two national labs to see which one has the 
fastest computer.
     But what is really important about that is that, you know, 
one of the issues with our climate models today, for example, 
is the fact that they extract about 4 to 5 percent of the peak 
theoretical performance of a computer. Back in the day when I 
was doing computing, it was 70 to 80 percent. And so what's 
nice about these new architectures is they have a lot of 
heterogeneity to them, different types of processors, so I 
think there's some promise there that we're going to actually 
be able to operate these models in the ways that we really need 
to operate them and with the level of sophistication that they 
already have to start addressing some of these questions and 
also address the issues of bias in the models and things like 
that, which continue to trouble us.
     Mr. Lipinski. Yes. So is the Administration committed to 
the funding that's needed for Aurora?
     Dr. Droegemeier. I'd have to go look at the budget, 
Congressman, but I believe so. I mean, the last time I talked 
to the Director of Argonne and to Thomas Zacharia at Oak Ridge 
I believe those things were on track, but I could get back to 
you. I'd have to----
     Mr. Lipinski. OK. Thank you.
     Dr. Droegemeier [continuing]. Look at that specifically.
     Mr. Lipinski. One last very quick thing, the concern 
about--you talk about openness. There's been some talk about 
it. I have received a letter from a number of universities in 
the State of Illinois that have concerns about the denial of 
visas and other issues that have happened outside of the State 
Department and other processes that Customs and Border Patrol 
has been turning down visas, for example. And I just want your 
commitment to working with other parts of the Administration to 
make sure that, you know, as long as people are cleared to come 
here to study, to research, that they are not stopped at some 
other part by some other part of our Government.
     Dr. Droegemeier. Yes, sir. In fact, this JCORE 
Subcommittee on Research Security, we work with the State 
Department. In fact, these folks come to the meetings. They're 
part of a State Department, Homeland Security, FBI (Federal 
Bureau of Investigation), National Security Agency. They're all 
involved at the table, and so we are looking at all of those 
issues, yes.
     Mr. Lipinski. Yes, because, I just--I've heard that--and 
it's great what you have done with it, and I--but I've heard 
that there are problems that exist even after that process is 
completed. So if you would just look into that----
     Dr. Droegemeier. Absolutely.
     Mr. Lipinski [continuing]. But I'm over my time.
     Dr. Droegemeier. You bet. Thank you, sir.
     Chairwoman Johnson. Thank you very much. Mr. Babin.
     Mr. Babin. Yes, ma'am. Thank you very much, Madam Chair. 
And thank you, Dr. Droegemeier.
     You mentioned briefly the need and importance of rural 
broadband. And as a representative of a rural district, I would 
agree wholeheartedly. I want to thank the President and the 
Administration for their commitment to connecting the entire 
country, including our rural communities, to the broadband and 
that issue. Could you elaborate on where we currently stand on 
this and the progress that we're making in terms of getting 
rural--I represent nine counties.
     Dr. Droegemeier. Right.
     Mr. Babin. Part of that's in Houston, certainly no problem 
there, but the upper--what we call deep east Texas, we--we're 
way behind. And it's something----
     Dr. Droegemeier. Right.
     Mr. Babin [continuing]. That really means a lot to me.
     Dr. Droegemeier. Sure.
     Mr. Babin. If you could elaborate on that.
     Dr. Droegemeier. Yes, sir. Absolutely. Thank you for that 
good question. A couple of dimensions to the answer. From an 
OSTP perspective, we're--we co-chair the American Broadband 
Initiative on behalf of the White House. Also, we're part of 
the Rural Prosperity Task Force, and so being from Oklahoma, I 
definitely----
     Mr. Babin. Absolutely.
     Dr. Droegemeier [continuing]. Resonate with your question. 
In the last C.R. (continuing resolution) there was a $600 
million of funding I think, as you all know, to USDA to do 
grants and bring other resources to bear on connecting rural 
America. The estimate that I've heard is about $40 billion 
overall to do this. So to give that as a context, the Connect 
America Fund, which again is auction proceeds that the FCC has 
made available, they've done this in various ways. They've 
provided $1.4 billion overall to connect a little over 600,000 
homes and businesses. But the biggie right now is the Rural 
Digital Opportunity Fund. Again, the FCC provided $20 billion 
over 10 years, so that kind of gets us halfway to this--to the 
completion.
     And the other point here I would mention is part of the 
issue of connecting has to do with spectrum availability----
     Mr. Babin. Right.
     Dr. Droegemeier [continuing]. And that's something that 
we're working on within the White House. Larry Kudlow leads 
that as the National Economic Council Chair, a very important 
issue. And the Ranking Member mentioned with regards to whether 
we look at who's using the spectrum, can it be shared, can it 
be vacated, all of those kinds of important issues. So that's 
part of the issue of making sure that it's available to rural 
broadband and also making the business case that's deploying in 
those areas where the populations are not as dense is still a 
very important one because of farming in rural communities are 
just a tremendous part of our economy----
     Mr. Babin. Sure.
     Dr. Droegemeier [continuing]. And a very important part of 
America. So we're making that case. I think the President is 
very, very strongly committed to that.
     Mr. Babin. Would you agree to work with me and my staff 
and give us maybe some pointers that----
     Dr. Droegemeier. You bet.
     Mr. Babin [continuing]. Some things that we might be able 
to do? I would appreciate.
     Dr. Droegemeier. Yes, sir. We can dive deeply----
     Mr. Babin. OK.
     Dr. Droegemeier [continuing]. Into that, you bet.
     Mr. Babin. Great. And the next question, China's 
investment and development and not on basic research implies 
that they're building their technological success on the basic 
research developed in the United States and other countries. 
We've even seen the infiltration of Chinese influence in our 
university systems on several different occasions at our top 
institutions here in just the last few weeks. We had a chemist 
that was arrested.
     Dr. Droegemeier. Right.
     Mr. Babin. How do we ensure that foreign nationals from 
China coming to study at our universities do not undermine our 
open system of research? And how seriously do you believe that 
university leaders are taking this threat?
     Dr. Droegemeier. That's a very, very good question. First 
of all, I would say from the data that we have China is really 
investing more in the applied--and I'm talking about the 
Chinese Government, let me be clear--investing more in the 
applied and the--sort of the experimental development, more the 
practical applied end, whereas we tend to invest Federal 
Government resources, I think very appropriately so, in the 
early stage research. So where is their basic research coming 
from?
     Mr. Babin. Yes.
     Dr. Droegemeier. The question is a little bit obvious 
there. They do invest in basic research.
     I can tell you in meeting with university leaders all over 
the country, and my own university included, university leaders 
are taking this very, very seriously. And I think that's a 
development that has changed over time frankly. I think for a 
while it was, well, how real is this? And then you start to see 
these cases come up, University of Kansas, Emory, M.D. 
Anderson, Harvard. People realize, yes, this is real.
     So what we're doing in JCORE is, again, really taking a 
behavior-based approach to this. And it really is about foreign 
government influence not just, you know, say, people coming 
here wanting to do bad things. There's strong influence on 
individuals in China in particular who come here and are under 
duress frankly with their families back in China and so on.
     The best thing we can do is make sure that those who come 
here share our values and that we vet them appropriately, but 
once they're here, we help them understand what our values are 
and how to live by them and then monitor that. And one of the 
ways we do that is through disclosures of things like conflicts 
of interest, are you part of a talent program, and so on. And, 
again, for the individual at Harvard, he was not a Chinese 
national. He was not ethnically Chinese.
     Mr. Babin. Right. Right.
     Dr. Droegemeier. So it doesn't matter where you're from. 
You've got to play by the rules, and if you don't, well, simply 
you don't belong and we toss you out of the research 
enterprise. And you lose all credibility anyway. And that's I 
think the value of the integrity that we as researchers hold 
dear, that if you don't play by the rules, we don't want you, 
frankly.
     Mr. Babin. Thank you. I know my time is out, but I want to 
say one quick thing. I'm the Representative of Johnson Space 
Center in Houston, and I would also like to commend the 
President and his budget people for giving NASA a 12 percent 
increase in that budget. We are very appreciative. Thank you, 
sir.
     Dr. Droegemeier. Thank you.
     Chairwoman Johnson. Thank you very much. I want to say 
that Mr. Lucas has a bill that has passed the House on--I think 
it's passed--rural broadband. OK. It's waiting to be voted on 
in the House.
     Dr. Droegemeier. Ah, OK.
     Chairwoman Johnson. But he's been very thoughtful, and I 
want to point out that it doesn't have to be deep east Texas. 
It can be deep south Dallas----
     Mr. Babin. Amen.
     Chairwoman Johnson [continuing]. Where we need the 
broadband.
     Dr. Droegemeier. Now, Mr.--Ranking Member Lucas, should we 
tell her we call that Baja Oklahoma? We don't want to say that, 
right?
     Chairwoman Johnson. Yes.
     Dr. Droegemeier. We won't go there.
     Chairwoman Johnson. Thank you. Ms. Bonamici.
     Ms. Bonamici. Thank you, Chairwoman Johnson and Ranking 
Member Lucas. We could use some rural broadband in Oregon as 
well.
     Dr. Droegemeier, welcome.
     Dr. Droegemeier. Yes, good to see you.
     Ms. Bonamici. Thank you for being here. First, I want to 
align myself with Mr. Lipinski's concerns about the cuts in the 
Department of Energy to ARPA-E and the Energy Efficiency and 
Renewable Energy budgets.
     The climate crisis is an existential threat, and I'm 
extremely concerned that in your first appearance here before 
this Committee this Congress you didn't even mention climate 
change except for when you were responding to questions from 
the Chairwoman and Mr. Lipinski. You're the President's top 
advisor on science policy, and with your background working on 
extreme weather issues, I'm alarmed frankly by the 
Administration's failure to take this issue seriously and to 
fund research on climate science.
     And I do have a budget question, but first, I want to ask 
a couple questions, yes or no questions, about something that 
concerns many of us here, as well as many in the scientific 
community. Dr. Droegemeier, should Federal agencies use the 
best available science to inform regulatory decisions?
     Dr. Droegemeier. Yes.
     Ms. Bonamici. Good. I think so, too. Should agencies 
implement policies that limit the scope of science that could 
be used in making decisions, yes or no?
     Dr. Droegemeier. Limit the scope of science? I'm not sure 
what you----
     Ms. Bonamici. That can be considered. Should the scope of 
science that can be considered in making regulatory decisions 
be limited, yes or no?
     Dr. Droegemeier. Well, I think if it's the best science, 
it's the best science. Yes, you just put the best science on 
the table. Yes.
     Ms. Bonamici. And were you consulted on the Environmental 
Protection Agency's proposed rule titled ``Strengthening 
Transparency in Regulatory Science?'' Were you consulted about 
that?
     Dr. Droegemeier. No.
     Ms. Bonamici. It's our understanding that this draft 
supplemental rule was submitted to the Office of Management and 
Budget for interagency review, so has OSTP offered comments on 
the draft supplemental rule during the interagency review 
process?
     Dr. Droegemeier. I would have to check on that, and I'd be 
happy to do that and get back to you.
     Ms. Bonamici. Thank you.
     Dr. Droegemeier. Sure.
     Ms. Bonamici. I would appreciate that.
     Dr. Droegemeier. OK.
     Ms. Bonamici. If the President's top science advisor and 
in light of OSTP's role in leading interagency efforts on 
science policy, are you aware of any larger Federal efforts to 
limit or otherwise censor science?
     Dr. Droegemeier. I'm not.
     Ms. Bonamici. Yesterday, there were news reports 
suggesting that the Interior Department will soon release a 
proposed Promoting Open Science Rule, which appears to have a 
similar objective to the EPA's proposed rule. And I have to say 
I share the concerns of many who are deeply troubled by these 
proposals that would limit the scope of science used in 
decisionmaking, jeopardize bedrock environmental standards, and 
endanger the health and well-being of our communities, so I 
wanted to share that concern.
     Dr. Droegemeier. Thank you.
     Ms. Bonamici. So, Dr. Droegemeier, in your testimony you 
noted that research and partnerships on ocean science and 
technology are a priority for the Administration. And I know 
that OSTP organized a summit on this issue unfortunately 
without congressional participation last year. Yet the 
President's budget request would slash funding for the National 
Oceanic and Atmospheric Administration's National Ocean Service 
by 37 percent and reduce funding for the Office of Oceanic and 
Atmospheric Research (OAR) by 40 percent. I also noticed the 
concern about the elimination--total elimination of the Sea 
Grant program that's proposed.
     Last year, the United Nations' Intergovernmental Panel on 
Climate Change (IPCC) released a special report on the ocean 
and cryosphere in a changing climate that found that the ocean 
is warming rapidly, it's becoming more acidic, it's losing 
oxygen, and becoming less habitable to the species that reside 
in it as a direct result of human-caused greenhouse gas 
emissions. So how do you reconcile those findings of the IPCC 
and the Administration's identified priorities with such 
drastic funding cuts?
     Dr. Droegemeier. No, thank you for that. So I'm privileged 
to serve on the Ocean Committee that was created with the 
executive order that the President signed. It's got two primary 
components and two subcommittees. One is on ocean science and 
the other one is on ocean resource management.
     So the S&T part of it is really the critical thing to look 
at all the aspects of ocean--things that you just mentioned. 
But also in the summit that we had, it was kind of a 
multisector summit. And frankly it was the first time really 
that there was such a summit. So it brought together nonprofits 
who are investing very heavily in ocean S&T and ocean 
exploration and also for-profit companies and the government 
and the university community.
     So when you look at all those equities, you look at all 
the resources, for example, the research vessels that 
nonprofits like Paul Allen's group is bringing to the table, 
you know, we partner with them and we get this tremendous 
multiplier effect. So even though there are cuts to the budget, 
it doesn't mean that the science research is being cut because 
when you partner like that, you're actually leveraging what 
investments are being made thoughtfully in the government, 
against all these other folks who have equities as well. And it 
was an extraordinary event actually where people were saying, 
OK, now we have a direction where we're going to go in that 
science and technology for the oceans.
     Ms. Bonamici. And I appreciate the partnership, but I know 
that solving this crisis is going to require those types of 
partnerships. However, in light of what we know and what we 
have learned and how it's affecting not only the health of the 
ocean, which of course reflects the health of the planet, but 
also the industries like our shellfish industry in Oregon, for 
example, very concerned. Our fishing industry, very concerned 
about the warming waters, about the acidic conditions. It seems 
like this would be a time in light of that recent report to 
increase those investments and of course work with the private 
sector----
     Dr. Droegemeier. Right.
     Ms. Bonamici [continuing]. But it's not a time to cut. And 
my time is expired. Thank you, Madam Chair. I yield back.
     Dr. Droegemeier. Thank you.
     Chairwoman Johnson. Thank you very much. Mr. Gonzalez.
     Mr. Gonzalez. Thank you, Madam Chair. Thank you, Dr. 
Droegemeier, for being here.
     Dr. Droegemeier. Good morning.
     Mr. Gonzalez. Good morning. I want to start and probably 
spend my whole time on the implementation of SASTA (Securing 
American Leadership in Science and Technology Act of 2020) 
through the JCORE Research Security Subcommittee. And thank you 
for the work that you've done standing that up and kind of 
pushing that forward. That was a bill that I was pleased to 
introduce and to see the fruits of that labor are exciting in a 
lot of ways. But first with the line of questioning I want to 
start by asking you to help us frame the China challenge 
specifically at the research institutions. How are they 
actually going in and influencing the policies at the 
universities, as well as stealing the technology?
     Dr. Droegemeier. It's a great question. So it actually 
takes many forms. One form is the fundamental issue of academic 
freedom. So sometimes you have individuals that are coming in 
and pushing back against certain folks who are being invited to 
campus to talk. Maybe they're from Tibet or whatever, so 
there's that dimension.
     Another dimension that we've seen is, for example, taking 
a proposal which is a very, you know, well-conceived, highly 
rated proposal and sending it to China--we have evidence of 
this--so that others over there could act on it before our own 
investigators have a chance to act on it. And sometimes there 
are groups of people that get together and they agree to review 
a proposal poorly so it actually won't get funded here and you 
take that really highly rated proposal and send it over to 
China.
     Another thing of course is actually taking physical 
materials. We've already seen this, vials of biological agents 
and things like that that are taken, sharing intellectual 
property, taking photographs of things, for example, that are 
export-controlled. So there's a whole variety of ways from 
undermining the fundamental integrity of the openness of our 
research enterprise vis-a-vis academic freedom to specific 
activities that seek to grab hold of particular things of 
interest to the Chinese Communist Party.
     Mr. Gonzalez. So using our own values of academic freedom 
against us in some ways, right? What percentage of the theft is 
conducted directly by folks who are a part of talent programs 
as opposed to outside of talent programs but still connected to 
the Chinese Government?
     Dr. Droegemeier. That's a great question. We don't really 
have specific data on that. I think one of the things that we 
are seeing is that the talent programs that go by a particular 
name, they tend to morph. They tend to go underground. They're 
a little bit like a virus. You know, it morphs and it changes. 
And so we're remaining vigilant to that.
     And also I think really trying to educate folks, this is 
something we've done on our subcommittee, develop best 
practices, examples of contracts of what the language actually 
says--if you're part of this talent program you agree to share 
this information, you agree to not disclose it to a Federal 
agency or, you know, things like that. It's completely 
antithetical to our values. Yes.
     Mr. Gonzalez. But you said, and I think this is right, 
that the names of these things morph and they go underground, 
right? So I guess I have a little bit of a concern on the 
reliance of the disclosures specifically because, two things. 
One, it's a self-disclosure----
     Dr. Droegemeier. Right.
     Mr. Gonzalez [continuing]. Right, but then the second is 
if you're asking about specific talent programs, they could 
just change the name tomorrow, right?
     Dr. Droegemeier. Right.
     Mr. Gonzalez. So kind of help me get more comfortable 
around that.
     Dr. Droegemeier. Sure. No, you're absolutely right. And 
disclosure is a really big issue and this issue of self-
disclosure, it's been that way for a long time. So, No. 1, 
universities are ramping up their use of these disclosures much 
more dramatically. No. 2, there has to be periodic audits of 
these things just like getting pulled out of the----
     Mr. Gonzalez. Is that happening today?
     Dr. Droegemeier. We're setting up to do that.
     Mr. Gonzalez. OK.
     Dr. Droegemeier. With 54 FBI field offices----
     Mr. Gonzalez. OK.
     Dr. Droegemeier [continuing]. You know, universities are 
not set up to do it. They don't have the information----
     Mr. Gonzalez. Right.
     Dr. Droegemeier [continuing]. So the audits need to be 
done by law enforcement.
     The third thing I would say is that we want to make sure 
that, you know, this stuff is actually shared. And sometimes 
you can't share information, say, from university to a Federal 
agency to a private company. And people kind of go underground. 
They hide by changing institutions, and legally, that 
information can't be shared. So we're looking now at 
mechanisms, legal mechanisms or possibly coming to Congress and 
saying we need to change the laws because if you're not sharing 
the information, then sometimes people can skirt the rules----
     Mr. Gonzalez. OK.
     Dr. Droegemeier [continuing]. And we can't have that.
     Mr. Gonzalez. And I trust you'll update us on any changes 
that are----
     Dr. Droegemeier. Absolutely. And anytime you want to have 
an update, we're happy to come over and do that. And again, 
thank you. You've given some tremendous input. I met with some 
Members the other day, very, very helpful input, and we always 
welcome that.
     Mr. Gonzalez. Great.
     Dr. Droegemeier. Yes.
     Mr. Gonzalez. Again, I'll end with what I started with. I 
just--I thank you for your work on this.
     Dr. Droegemeier. Thank you.
     Mr. Gonzalez. It's a major initiative. I'm somebody who 
thinks we should be increasing our research across the board 
and making sure we're always at the cutting-edge, but alongside 
of that we have to secure.
     Dr. Droegemeier. Right.
     Mr. Gonzalez. And I know that that's a mandate that you 
share. So----
     Dr. Droegemeier. Absolutely.
     Mr. Gonzalez. With that, I thank you and I yield back.
     Dr. Droegemeier. Thank you, sir.
     Chairwoman Johnson. Thank you very much. Ms. Wexton.
     Ms. Wexton. Thank you, Madam Chair. And thank you, Dr. 
Droegemeier, for joining us here today.
     Dr. Droegemeier. Sure.
     Ms. Wexton. Dr. Droegemeier, are you familiar with the 
Economic Research Service and the National Institute of Food 
and Agriculture both within USDA? Are you familiar with those?
     Dr. Droegemeier. I've heard of it, but I'm not--I wouldn't 
say I'm familiar with it, no.
     Ms. Wexton. So I will let you know a little bit about what 
they do.
     Dr. Droegemeier. OK.
     Ms. Wexton. These are two research agencies within the 
USDA. The Economic Research Service or ERS is USDA's science 
arm, and it produces statistical analyses to inform policy and 
industry decisions with real impacts on farmers, consumers, 
rural communities, and natural resources. The National 
Institutes of Food and Agriculture or NIFA----
     Dr. Droegemeier. Yes, that I know. I know NIFA.
     Ms. Wexton. It funds hundreds of millions of dollars in 
research grants for agricultural concerns and best practices, 
things of that nature. So you're aware of that.
     Dr. Droegemeier. I'm aware of NIFA, yes.
     Ms. Wexton. OK. So are you aware that last year, these two 
agencies were relocated from Washington, DC, to Kansas City?
     Dr. Droegemeier. Yes.
     Ms. Wexton. And that was done on an expedited basis, 
correct?
     Dr. Droegemeier. I just know they were relocated, yes. I 
don't know if it was expedited or not, but----
     Ms. Wexton. Did you know that they were--they've been 
operating with a skeleton crew ever since that relocation took 
place?
     Dr. Droegemeier. I've heard something along those lines, 
yes, that they haven't been able to bring in as many people to 
re-staff.
     Ms. Wexton. In fact, at least 75 percent of the staff has 
left, including all of the publishing staff at ERS and all of 
the grants management NIFA. And as of last month, ERS had 180 
vacancies to fill due to the mass attrition from the expedited 
agency move. So there's been not only a big loss of workforce 
but a huge brain drain from those agencies.
     And at the time the move that was proposed Secretary 
Perdue justified it by saying it would ensure that USDA was, 
quote, ``the most effective, most efficient, and most customer-
focused agency in the Federal Government.'' And OMB Director 
Mick Mulvaney referred to the Federal employees quitting en 
masse as ``a wonderful way to streamline government and do what 
we haven't been able to do in a long time.''
     So now the President's current budget request for ERS 
includes a decrease of $22.6 million or more than 1/4 of its 
budget from last year for ERS. Almost 70 percent of that cut 
comes directly from further proposed reductions to full-time 
staff in ERS from 329 to 187 positions.
     So, Dr. Droegemeier, has the departure of hundreds of 
employees from ERS and NIFA, which Mr. Mulvaney referred to as 
``a wonderful thing,'' improved the function of Federal science 
at USDA?
     Dr. Droegemeier. I honestly don't have enough information 
to answer the question, but I appreciate your explanation. I 
would have to get more information to really thoughtfully 
answer that because I really don't know. I haven't looked at 
the science output and what the staffing levels are, and need 
to be. And these things tend to get complicated when you look 
more in detail at them. So I'm happy to do that, absolutely.
     Ms. Wexton. Well, if all the grants management staff has 
left NIFA, does that make it pretty likely that they're not 
able to manage grants?
     Dr. Droegemeier. Well, it depends on if that function has 
been transferred somewhere else. Given the fact that they were 
moved, maybe that function exists somewhere else. So, you know, 
again, I'd have to really look at the big picture to see, but 
I'm happy to do that.
     Ms. Wexton. So is OSTP doing anything to support ERS and 
NIFA in rebuilding the full science capacity of both these 
agencies?
     Dr. Droegemeier. Not to my knowledge.
     Ms. Wexton. OK. Will you commit to do something about that 
or----
     Dr. Droegemeier. I'll certainly look into that. Yes, I'm 
aware of it, but, you know, they are a Cabinet-level agency, so 
they certainly have freedom to manage their department. But I'm 
happy to be helpful however I can.
     Ms. Wexton. OK. Very good.
     Dr. Droegemeier. Yes.
     Ms. Wexton. And both these agencies have vacancies in key 
leadership positions right now. The ERS Administrator and 
multiple top-level science leadership positions at NIFA remain 
vacant or acting. So would you agree that these temporary 
appointments and vacancies are limiting the representation of 
USDA's science efforts and specifically the NSTC Committee on 
Science?
     Dr. Droegemeier. Honestly, I couldn't answer that today as 
I sit here, but I'd really love to get schooled up on this and 
learn more and be able to answer that.
     Ms. Wexton. Absolutely. If you would----
     Dr. Droegemeier. Yes.
     Ms. Wexton [continuing]. Please look into it and report--
--
     Dr. Droegemeier. Sure.
     Ms. Wexton [continuing]. Back about your findings because 
this is really important, and it's been a big attack on science 
and as----
     Dr. Droegemeier. OK.
     Ms. Wexton [continuing]. Science and technology policy, I 
think that you would want to get that----
     Dr. Droegemeier. Yes.
     Ms. Wexton [continuing]. Corrected.
     Dr. Droegemeier. Thank you. Yes, I'll certainly do that.
     Ms. Wexton. Thank you very much. And I'll yield back.
     Chairwoman Johnson. Thank you very much. Mr. Baird.
     Mr. Baird. Thank you, Madam Chair.
     And, Dr. Droegemeier, I appreciate your commitment to 
science and particularly to research and development. And the 
fact that you are from rural Oklahoma, I represent a rural are 
of Indiana, and so I can appreciate the commitment to high-
speed internet.
     But also, as a meteorologist, I know you're aware that the 
weather forecasts are dependent on satellite data. There's been 
a great deal of concern in the weather community that the 
deployment of the 5G could interfere with forecasting 
capabilities. And, as you are aware, that could impact 
agriculture and, you know, we're extremely dependent on weather 
and weather forecasts as we decide what kind of planting, 
harvesting, or spraying activities we might do. So would you 
mind sharing your thoughts on that issue and what steps you're 
taking to help advocate or mitigate that?
     Dr. Droegemeier. Right, absolutely. No, thank you. So OSTP 
is in fact a part of that conversation in the interagency. 
Again, Larry Kudlow leads that activity. And with regard to the 
weather satellites in particular, it was I believe last fall we 
were looking at that issue. I'm trying to remember exactly the 
band. It was three--well, anyway, I won't worry about that, the 
gigahertz band that it was.
     But the question was when you have a transmission from a 
particular 5G antenna, what is the so-called outer band 
emission? Does it leak over to an area where the passive 
satellites are? Because the satellites are just listening. 
They're not transmitting. They're listening for very weak 
signals. So the concern was if there is interference, it could 
really inhibit the getting of the satellite data.
     The challenge with all this is--and of course we all know 
we don't ever have as much information as we want, but we don't 
really have ubiquitous 5G deployment. There's not been 
extensive testing in the field of these things, so we had to go 
based on a lot of theoretical analyses and assumptions about 
what 5G would look like. So we made a best decision which I 
thought was good but also with the proviso that if there are 
problems, we left enough wiggle room to be able to address 
them. You can't go up and change the satellites--they're 
already flying around--but we came to a spot that I thought was 
really, really good that will both, you know, be a thoughtful 
deployment now, but if things go south, we are prepared to be 
able to address those issues.
     Mr. Baird. Thank you. Well, then my second question I want 
to switch back a little bit to the STEM skills. And we've 
talked a lot about that. We talked a lot about that in this 
Committee. And I really appreciate you mentioning vocational 
schools and so on, mentioning welders and the need to really be 
digitally literate, and it doesn't matter----
     Dr. Droegemeier. Right.
     Mr. Baird [continuing]. And you mentioned even though a 
lot of those machines and robots operate I wouldn't say on 
their own, but they still take a human touch and an 
understanding of the digital concepts, so I just wondered if 
you might elaborate on that a little more ensuring every 
American----
     Dr. Droegemeier. Sure.
     Mr. Baird [continuing]. Has the opportunity to----
     Dr. Droegemeier. Yes, I think there's tremendous 
opportunity, and I have to say, you know, it's wonderful to 
hear the National Science Board, which governs the National 
Science Foundation, doing a report on the skilled technical 
workforce. You would think, well, they're focused on Ph.D.-
level people. They have this concern and really well-placed, 
and so they're very thoughtful. And they'll actually be 
collecting data, which we don't have a lot of data on the 
skilled technical workforce.
     But I think folks in America can be very, very pleased 
that President Trump focuses on these types of jobs as being 
valuable, as providing mechanisms to actually get on a pathway 
toward--if you're a welder, if you're a plumber, if you're an 
electrician--not just, you know--you can continue to do what 
you're doing, as an entrepreneur, you can start your own 
business, but you can also get on to a higher level of skill 
and pathway. And so now we're working with companies who 
actually don't look at, oh, what degree do you have or what--
you look at the skills because at the end of the day a degree 
or a job it's just a bunch of skills, so we're kind of taking 
this down to the fundamental level of skills of the worker, 
skills of the employer, skills of the producer, whether it's a 
technical school, a college, or whatever and saying what skills 
are you really looking for? Don't tell me you need a 4-year 
degree and 5 years' experience. What are you really looking 
for? And that is opening enormous horizons for individuals, 
including our military.
     And I want to thank you all for your work with the 
Veterans STEM Act that the President just signed into law, 
very, very exciting for our men and women in uniform to really 
look at how do they, you know, get on to different pathways of 
prosperity for their own skills.
     So it's something that the President, Ivanka, and 
everybody is committed to, and it's making a difference. You 
look at the data, you know, and the middle class is rising, 
these folks are getting jobs, they're making more money. That 
increases the tax base. It's great for the country, it's great 
for them and their families. It's just a no-lose situation as 
far as I can see.
     Mr. Baird. Thank you very much for that.
     Dr. Droegemeier. Yes, sir.
     Mr. Baird. And I yield back. I'm out of time.
     Chairwoman Johnson. Thank you very much. Mr. Foster.
     Mr. Foster. Thank you, Madam Chair, and thank you, Dr. 
Droegemeier, for appearing here.
     You know, one of the great things that's happened in 
Congress, which is sort of rare these days, is the bipartisan 
consensus that we ought to something like double our research 
budgets----
     Dr. Droegemeier. Right.
     Mr. Foster [continuing]. Over some time like over the next 
10 years and these--you know, they've been put forward by my 
Republican colleagues here. There are Democratic proposals, and 
there's also a lot of enthusiasm for that in the Senate. This 
is obviously a very big contrast with what we're hearing from 
OMB.
     And, you know, so I sort of feel like that situation with 
the Cuban missile crisis back in the 1960s where the 
Administration was faced with two very different communications 
from the Russians and had to just choose to respond to the one 
that they found favorable. And I think that's sort of what 
we're going to end up doing here I hope.
     But, you know--and there's sort of a narrative that goes 
with that, that it's no harm, no foul since the really 
destructive budgets that the Administration is proposing won't 
really damage things because Congress will fix it. And that's 
not quite true, and I wanted to dig into that. The problem is 
the planning, that when you engage--when you're forced to 
engage in planning exercises that are constrained by 
unrealistically decreasing budgets whereas the congressional 
intent is actually to increase, then you don't undergo the 
planning and you don't get the projects lined up that will 
actually be funded. And, you know, there's a danger frankly to 
the money when it arrives from Congress may end up being 
misspent. And so that's one thing I worry about, that the 
pipeline of future projects is sort of artificially being 
drained out because you're not allowed to plan for 
unconstrained or actually increasing budgets in many areas.
     And so one of the things I'd like to direct your attention 
to as a way of solving that given the pipeline is dangerously 
empty of future projects is that you can temporarily solve it 
with dealing with the infrastructure deficit at the Department 
of Energy, NIST (National Institute of Standards and 
Technology), and other places. You know, I am very proud to be 
the Co-Chair of the National Labs Caucus and--because I spent 
23 years at Fermi National Labs. And I made it one of my 
missions in Congress to drag as many of my colleagues as I can 
to each of the 17 DOE national labs and others. Just last week, 
we actually visited Ames Lab, and we're heading to Argonne and 
Fermilab next month. But--and you can see at every one of these 
labs that the infrastructure has been underinvested in a while.
     This gives you the opportunity when Congress does deliver 
a more favorable budget to immediately transfer a big slice of 
that money into an area where it's unlikely to be misspent, 
that as you define new projects to absorb you know, the--what 
we hope to be the eventual doubling of budgets that you--the 
first thing you do is fix the deficit that exists.
     And so I was wondering if you can comment on that and, you 
know, specifically in the context of what we hope are 
realistically increasing budgets. Are you--will you advocate 
for American scientific infrastructure from, you know, just 
completing the construction of experimental facilities that 
have not the full complement of things, just simply, you know, 
repairing things? And can you say something about that?
     Dr. Droegemeier. Absolutely. No, it's a great point. And 
in fact, you know, I think science infrastructure is a 
legitimate part of infrastructure. We talk about roads and 
bridges and other infrastructure, but obviously to be the world 
leader in S&T we do need science infrastructure, absolutely the 
case.
     I am a huge fan of the 17 DOE labs. I talk about them all 
the time, and I think they're absolutely the crown jewel that 
sets us far apart from other countries that may be investing 
heavily in AI and quantum and things like that, but we've got 
our DOE labs, and there's no equal to them anywhere in the 
world, no question about that.
     Back to your other point, though, there was a lot of 
planning that went into the budget with regard to prioritizing 
industries of the future and AI and quantum in particular. And 
so when you do set these priorities, you know, you really do go 
through a lot of planning. And so when the agencies plan their 
budgets, you know, OMB gives them a guidance level but then 
they give them, you know, above guidance and so on. And there 
are a lot of times the agencies will look well above guidance. 
They know what their appropriated levels were. So they're not 
surprised if----
     Mr. Foster. It's my understanding that actually from, you 
know, talking to people that probably shouldn't be talking to 
me that actually that level of planning did not take place. 
They were not allowed to say what would you do with a doubled 
budget, that that was--typically, they were more--they were 
saying what would you do if your budget was cut by 50 or 80 
percent----
     Dr. Droegemeier. Yes.
     Mr. Foster [continuing]. Or maybe if you're lucky held 
flat? But there was not planning for what would you do with a 
double budget. And that's, you know, the danger there is you 
won't have the----
     Dr. Droegemeier. Yes.
     Mr. Foster [continuing]. Well-planned-out----
     Dr. Droegemeier. Right.
     Mr. Foster [continuing]. Projects that would absorb that 
money.
     Dr. Droegemeier. I think not with a double budget, right, 
but, you know, the agencies look at appropriated levels and 
they say, OK, you know, this is the President's budget. That's 
what we write our budget to, but if it turns out that Congress 
appropriates more, we can't all of a sudden say, oh, what do we 
do with that. So they do plan for much larger increases 
depending on what Congress does because you do hold the purse 
strings and they realize that, so they're not caught flat-
footed I guess is my point.
     Mr. Foster. Well, yes, but still, you know, there's a lot 
of effort that goes into these budgets, and----
     Dr. Droegemeier. Right.
     Mr. Foster [continuing]. That ended up being ignored, you 
know, and so I think that--I'd just like to urge you to 
transmit all the way down the chain that you can that we need 
to start planning for what we all hope to be realistically a 
doubling of the budgets here and come up with a set of 
projects. And I think the good starting place for that is, you 
know, I just last week--because I've been worried about how 
this would happen, Congressman Lujan and I introduced the 
National Lab Restoration Modernization Act to authorize----
     Dr. Droegemeier. Right.
     Mr. Foster [continuing]. Yes, $6 billion, and that is a 
short-term starting point, but we need the long-term budget 
planning to--thank you. And I will----
     Dr. Droegemeier. Good point. Thank you.
     Mr. Foster. I'm over time and----
     Dr. Droegemeier. Thanks, Dr. Foster.
     Mr. Foster [continuing]. Yield back.
     Chairwoman Johnson. Thank you very much. Mr. Murphy.
     Mr. Murphy. Thank you, Madam Chairman, and welcome, Dr. 
Droegemeier. I appreciate your appearing before us today.
     Budgets are a hard thing to work out with, and we all wish 
we had an infinite money stream and priorities need to be made. 
And I congratulate you and give you condolences on how to deal 
with those.
     I want to circle back a little bit on the academic issues 
with China. A former academic and around that environment for 
long time, I just want to talk a little bit about the 
challenges that we face with intellectual property and 
integrity and everything. Obviously, you know, as one of our 
former Congressmen noted, there are issues going on with China 
with the theft of intellectual property. And I'm just wondering 
what are we doing about getting that down on a granular level 
to college, universities, presidents, vice presidents, faculty, 
tenured, et cetera? Because, you know, having served on Board 
of Trustees previously, it's nice when people from other 
countries want to come in and pay full fare to expensive 
universities, and those are welcomed by university presidents 
and everybody else because they help pay the budget. But on the 
other hand if these individuals are coming off and literally 
stealing our country's technology and everything, there is a 
balance. So how are you guys approaching this? How are we 
educating our academics to not only the problem but to 
solutions to this?
     Dr. Droegemeier. Yes.
     Mr. Murphy. It's a real major problem.
     Dr. Droegemeier. And it's an excellent question, too. And, 
you know, I think a lot of the IP theft, you know, actually 
occurs within private companies, not within the academic 
enterprise. But what we've heard Director Wray say of the FBI 
is that there are over 1,000 open cases now with the China 
nexus that are mixture of universities and private companies or 
a mixture of probably illegal activities and also failure to 
follow government rules, which maybe are not illegal but they 
could in the case of Harvard lead to an indictment if you're 
lying to the government or whatever.
     With regard to the level of faculty, you know, as a 
professor, I realize when I came to OSTP, as we were doing 
this, that a lot of the conversation that needed to happen was 
not happening with boots-on-the-ground researchers and frankly 
graduate students and postdocs as well, so there have been a 
lot of great discussions with chancellors and presidents, and 
provosts, but the folks on the frontlines are faculty.
     So in going around the country, that's what we've been 
doing is convening these regional meetings. We've had close to 
a dozen of those, but also I put out a broad letter to the 
community from a researcher myself to other researchers to say 
here's what we're doing, we need your input. And that's why the 
RFI is out there, to provide that kind of input.
     We also work with all the professional societies, 
Association of American Universities, APLU (Association of 
Public and Land-Grant Universities), Association of American 
Medical Colleges, all of them, constantly meet with them. They 
meet with professors. We go to their annual meetings and so on 
to communicate. But we're also developing a best practices for 
universities. And I say we. I'm not saying OSTP but--we're 
leading the effort but we bring in the community to all develop 
best practices together and then share those, but also 
educational materials. You're absolutely right. We have to 
teach people about this.
     And we also have to teach them about research values. A 
lot of folks, they wake up in America even if they're from here 
they don't think about the values and what researchers adhere 
to.
     So we're doing all of those things, as well as looking at 
policy activities focused around disclosures and monitoring 
disclosures and things like that. I can tell you the 
universities are very open to this. Again, if I have a bit of a 
fear, it's that universities are going to overreach and layer 
on more than what's needed and create additional administrative 
burden for the universities, for the researchers. And we also 
have to be mindful of the agencies as well. So we've got to 
have the balance of openness and not overreach in terms of 
addressing the issues. But I think we're finding the sweet 
spot.
     Mr. Murphy. Yes, I mean that's excellent. Do you feel that 
the boots on the ground are understanding the gravity of the 
problem?
     Dr. Droegemeier. Yes, definitely. It's way different than 
it was a year ago.
     Mr. Murphy. OK. All right.
     Dr. Droegemeier. It's been a sea change frankly, and I 
think a lot of it is what you see in the press. We get asked a 
lot of times, well, how pervasive is this? Well, the answer is 
we don't really know, but we know there's a lot of it out 
there. We can't give you a percentage, but I don't think it 
takes many examples from across the spectrum of institutions 
for people to say, yes, there's something to this. And we go to 
classified briefings and we're trying to open up more 
information that isn't classified that we can share with our 
university colleagues.
     Mr. Murphy. Yes, will thank you. I mean, that's excellent. 
I'm heartened to hear that.
     Dr. Droegemeier. Yes.
     Mr. Murphy. We're going to be probably experiencing much 
more of a need for free flow of information now with the 
coronavirus and some of these other----
     Dr. Droegemeier. Great example.
     Mr. Murphy [continuing]. Issues and----
     Dr. Droegemeier. Yes.
     Mr. Murphy [continuing]. You know, China has been hiding 
really what is truly going on over there, and so we have to be 
open to getting that information from them but also protecting 
our own information----
     Dr. Droegemeier. Right.
     Mr. Murphy [continuing]. At the same time, so----
     Dr. Droegemeier. Yes, sir.
     Mr. Murphy. In lieu of my time, I'll yield back.
     Dr. Droegemeier. Thank you, sir.
     Mr. Murphy. Thank you.
     Chairwoman Johnson. Thank you very much. Mrs. Fletcher.
     Mrs. Fletcher. Thank you, Chairwoman Johnson. Thank you 
for holding this hearing today, and thank you, Dr. Droegemeier, 
for your testimony.
     I'm glad to see you here today, and true to form, when you 
arrive late and you go at the end, sometimes other people ask a 
lot of your questions, so I just want to reiterate my interest 
and concern. You've addressed some of the things that I was 
concerned about, but I join my colleagues, Mr. Lipinski and Ms. 
Bonamici, in their concern about the cuts to ARPA-E budget and 
the widespread budget cuts at DOE. I serve as the Chair of the 
Subcommittee on Energy on this Committee, and I'm very 
concerned about the research efforts at DOE. In fact, as we 
look at our energy future, I think we need to be investing more 
rather than less on innovative research. And I understand from 
your prior testimony that, you know, you share some of those 
concerns. And I just want to reiterate the proposed elimination 
of the ARPA-E budget is deeply troubling.
     I also share the concerns raised by Dr. Baird about 5G, 
and I'm sure that this is something you know well, the 
potential impact of 5G on our Nation's weather forecasting 
capability and impacts on NOAA and NASA, those are very real 
concerns here as well.
     But since they have covered those, I want to move on to 
the--some questions about the EPA because the EPA has a mission 
to protect public health and the environment. And as a 
regulatory agency, EPA's public health protections are built on 
a foundation of sound science. States, tribes, and local 
governments look to the EPA to provide scientific and technical 
expertise to deal with environmental concerns because many 
don't have the resources or the knowledge to conduct the level 
of scientific inquiry that is required. In fact, I was just 
meeting with some constituents yesterday talking specifically 
about needing EPA guidance in order for them to continue to do 
certain work. So it's especially evident, and what we were 
talking about yesterday was the issue of PFAS (perfluoroalkyl 
substances) contamination, trying to understand lead in water, 
various issues that are really critical environmental 
contaminants.
     So despite the need for this clear and robust scientific 
enterprise within the EPA, the President's budget seeks to cut 
the Agency's topline budget by $2.4 billion and cut the 
Agency's R&D budget by 44 percent. How will gutting the R&D 
capacity of the Nation's premier public health agency help 
protect the environment and human health?
     Dr. Droegemeier. So I think they're focusing their 
energies, if I could say it that way, on six integrated 
programs, air and energy, chemical safety, homeland security, 
human health risk assessment, safe and sustainable water 
resources, and sustainable and healthy communities. And within 
that framework the three topline things are PFAS research, lead 
research, and harmful algal blooms, which are very much aligned 
with our work in emerging contaminants. We chair--we actually 
co-lead the National Science and Technology Council Task Force 
on contaminants of emerging concern. We just actually had a 
meeting yesterday that I was involved with that talked about 
the money that is--I think Congress appropriated this, but it's 
going to, for example, places like Flint to replace lead pipes, 
so there's a lot of activity there. Also water availability and 
quality is something that we have a task force on within NSTC 
as well, within OSTP. So these are really key areas.
     And one of the things that we do at OSTP is to look at 
what is the research agenda? What do we really need to be 
doing? How do you identify these chemicals? What are the health 
impacts? How do they get into the water to begin with and, you 
know, how do we remediate them? Do we simply replace the pipes 
or, you know, what about groundwater and so on? So we look at 
that. And we actually developed a plan, a strategic plan, and 
there's also--I think the DOE has a water security grand 
challenge, so they're going out and basically saying, if you 
want to win this prize, grand challenge, how do we do this? And 
so it is really engaging the broader community.
     So I think the research and development is really focused 
within EPA on these very specific activities and what they call 
their--you know, their research program, their portfolio, yes.
     Mrs. Fletcher. Well, thank you for that. And I do 
appreciate it. I think it is encouraging to see the modest 
increases in the President's budget to R&D efforts on those 
issues, homeland security, PFAS----
     Dr. Droegemeier. Right.
     Mrs. Fletcher [continuing]. Lead in the water. But some of 
the other cuts to the other research programs and staff within 
the agency--and certainly we are looking at the closure of the 
EPA Region 6 office in our area and very concerned about the 
impact of that as well. So, you know, there are serious 
concerns about what is happening overall at EPA, and in fact, I 
would like to ask for unanimous consent to enter an article 
from the American Journal of Public Health that discusses how 
recent EPA actions have eroded our leadership and our 
international leadership in environmental health. And I'm 
running very low on time, but I'd like to enter this in the 
record and maybe just conclude with your thoughts about how we 
address the concerns of prominent environmentalists and health 
professionals that the EPA is no longer leading the global 
environmental health community.
     Dr. Droegemeier. Well, I think ultimately we want to make 
sure that we are tackling the most important science challenges 
that we have, whether they're health-related, whether they're 
environment-related because they're sort of all in together----
     Mrs. Fletcher. Right.
     Dr. Droegemeier [continuing]. And that we're focusing our 
assets. We see this with the coronavirus. You know, all of a 
sudden within 42 days we have a private company that's taken 
messenger RNA and created a vaccine for phase 1 clinical trial. 
So I think there's tremendous capability out there that 
sometimes we just don't realize until it's needed. So I think 
ultimately the thing we've done in the President's budget is 
focus on the high-priority items. Other things of lesser 
priority do have to maybe move aside or get less funding, but 
if we really prioritize and we're being very strategic with our 
assets, and I think that's what the President's budget tries to 
do.
     Mrs. Fletcher. Well, I appreciate you being here this 
morning to answer my questions. I've gone over my time, so I 
will yield back. Thank you.
     Dr. Droegemeier. Thank you.
     Chairwoman Johnson. Thank you. Your statement will be 
entered into the record. Mr. Weber.
     Mr. Weber. Thank you, ma'am. Dr. Droegemeier, I appreciate 
you being here.
     I appreciated the President's commitment to maintaining 
American leadership really in a whole variety of ways but also 
in nuclear science. In 2018 he signed into law some legislation 
I was privileged to be part of the lead on, the Nuclear Energy 
Innovation Capabilities Act. With that in mind, the next round 
of nuclear reactors, can you discuss exactly how nuclear energy 
fits into the Administration's clean, I want to emphasize 
clean, energy agenda and how the President's budget request 
supports development of the advanced nuclear reactors in these 
United States of America?
     Dr. Droegemeier. Absolutely. Thank you for that question, 
sir. I would say that nuclear energy is a very high priority. 
The versatile test reactor at DOE is really a top line. It's 
actually in the so-called analytical perspectives of the budget 
chapter of the document that came out. It is a high-energy 
neutron reactor, and basically the only one that exists 
anywhere on the planet right now is in Russia. And so we really 
cannot depend upon Russia to be developing our next-generation 
capabilities in nuclear. This thing allows us to develop new 
nuclear fuels, next generation fuels, but also actual reactor 
design. And so there's an effort underway to develop this at 
DOE, and I may get the year wrong but I think it's 2024, 2025 
that this thing will be up and running, so that's very 
important.
     Mr. Weber. So you're saying that Russia will help us with 
our elections, just not with advanced nuclear design?
     Dr. Droegemeier. Not with advanced nuclear reactors, yes.
     Mr. Weber. I got you. Keep going.
     Dr. Droegemeier. There's also the transformational 
challenge reactor at Oak Ridge National Lab, an incredible 
laboratory. The thing is 3-D printed, so you can imagine 
developing a reactor that's 3-D printed. So that's really 
critical. And there's also a Nuclear Reactor Innovation Center 
at DOE. So those are some of the areas that I think are 
extraordinary.
     And again, I visited a company down in Lynchburg, 
Virginia, about 3 weeks ago and was absolutely astounded at 
what I saw in terms of nuclear energy. Small modular reactors 
as we call them, are very, very safe. The new fuel being 
developed, you know, basically if the reactor--there's an 
explosion or whatever, the thing doesn't melt down. It's 
incredibly safe, could generate 100 megawatts of electricity, 
up to 300 megawatts, and these things are just, you know, the 
size of a building column and they're very, very safe. And you 
look at distributed energy. You look at putting these things 
in, you know, remote outposts at our military bases. They're 
really extraordinary.
     So I think the issue really right now is economics. Do 
these things compete with the tremendous energy advances we've 
made under President Trump with clean energy, with fracking, 
with shale gas, things like that. Right now, as we heard in 
this company, there's not--it's not economically as 
advantageous as we would like. But the research goes on, and I 
think it's very important to do that, to get the reactor power 
up, to size down, you know, the issues of fuel disposal and 
things like that taken care of. So I'm really excited about the 
great things happening in nuclear.
     Mr. Weber. Well, I'm glad to hear you say that. And of 
course part of that is the permitting process and all the 
revelatory stuff----
     Dr. Droegemeier. Right.
     Mr. Weber [continuing]. That we've got to go through, and 
if we can----
     Dr. Droegemeier. Yes.
     Mr. Weber [continuing]. Get that as--and obviously, we 
want to use good science.
     Dr. Droegemeier. Right.
     Mr. Weber. That's been talked about earlier in this 
hearing. But we want to be sure that we can make it as 
extremely affordable. It's so clean. I'm pleased to hear that 
the President's focus is on that.
     I'm going to switch gears. The DOE's Fiscal Year 2021 
budget request includes robust funding for both the development 
and application of artificial intelligence and machine-learning 
technologies across its many, many programs, particularly 
within the Office of Science. It also reflects the recent 
establishment of the Department's new Artificial Intelligence 
and Technology Office. As the Ranking Member of the Energy 
Subcommittee, I feel very strongly that with its best-in-the-
world computing resources and scientific capabilities DOE is 
uniquely qualified to play a lead role in any national AI 
strategy. With that in mind, in OSTP's national effort to 
maintain American leadership in AI, what role do you have in 
mind for the Department of Energy, Doctor?
     Dr. Droegemeier. Yes. DOE is--you know, is an 
extraordinary agency, but the laboratories are doing amazing 
things. For example, the Frontier computer that will be 
displacing Summit down at Oak Ridge in about 2 years I believe 
is really designed around AI. So it will have incredible 
capabilities of processing AI. Just Oak Ridge alone is doing 
some things in cancer screening research in AI, in job 
reskilling. They're doing some things in, you know, job 
displacement, things like that.
     I just got a note from the Under Secretary of Science 
yesterday. He said we are actually using this information on 
these computers now with the coronavirus to look at how you 
actually simulate the virus or you simulate vaccines for the 
virus to get way out ahead to look at what possible pathways 
are the best ones. DOE, you think, well, why would an energy 
lab do that? Because they have the capability, and they're part 
of the American R&D enterprise.
     So the AI component of the industries of the future is 
incredibly important and, you know, we are--right now, we just 
released the 1-year report. We're celebrating the anniversary 
of the American AI initiative. We just released this report. 
But in addition to the funding for AI development, very, very 
important regulatory principles and also a fair use of AI, 
making sure that we're using it with integrity. We just, 
through the Office of Management and Budget, led the 
development of international principles and also a regulatory 
framework for AI to avoid, you know, potential misuse and 
things like that, guidance to agencies for private-sector 
deployment of AI. It's very important.
     And Michael Kratsios, the Chief Technology Officer of the 
United States, has been leading this effort, doing an 
extraordinary job, and gets to issues of fairness and 
discrimination of AI and avoiding, you know, misuse of AI. It's 
very, very important, a huge thing. And certainly the public 
has to trust AI systems. And as the military said the other 
day, we have to be able to turn it off if we see a problem with 
it. So those things I think are equally important to the 
research which are tremendous capabilities for that and job 
development and so on, yes.
     Mr. Weber. Well, thank you. I think that's a long way of 
saying you're in favor of it.
     Dr. Droegemeier. I love it.
     Mr. Weber. So I appreciate that.
     Dr. Droegemeier. Yes, sir.
     Mr. Weber. Madam Chair, I yield back.
     Chairwoman Johnson. Thank you very much. Ms. Horn.
     Ms. Horn. Thank you. Thank you very much, Chairwoman 
Johnson.
     Dr. Droegemeier, it's good to be here with you today. I'm 
sad that I missed the introductions earlier. It's always great 
to have a fellow Oklahoman in this position. And to echo 
Congresswoman Fletcher's--her sentiments, there are many things 
that I'm concerned about that were addressed. But I want to 
turn our attention now to something that we haven't had the 
chance to discuss and something you may or may not be familiar 
with. I think you are. And that's the weather forecasting 
research and the needs for that in this budget.
     As you are undoubtedly aware, this Committee has held 
several hearings in this Congress when we talked about the need 
for weather forecasting. And as Oklahomans, we understand that 
immensely. And as the Chair of the Space and Aeronautics 
Subcommittee, the importance of our ability to invest in these 
critical capabilities is incredibly important.
     And with the authorization of the Earth Prediction 
Innovation Center or EPIC at NOAA and the need to continue to 
improve weather prediction forecasting especially with the 
changing climate issues and take it from research to 
integration and operations, I'm concerned that, despite the 
direction of Congress and the importance of this issue, that 
the budget request seeks to cut the budget of NOAA research by 
40 percent.
     So my question is, as a meteorologist and your experience, 
can you speak about the importance of research to developing 
the models? And what is the impact on NOAA? Because it's a 
place that has been chronically underfunded. So what is the 
likely impact if we're not investing in this research for 
weather predictions?
     Dr. Droegemeier. No, it's a really great question and, you 
know, we have a lot of NOAA facilities in Norman, at the 
National Weather Center, so I'm very, very familiar with that. 
So very, very good point.
     The thing about EPIC, I think we're doing something that 
frankly is epic honestly. We're putting a part of our 
enterprise where it belongs, out into the community, out into 
the research community. And that's been a long-standing 
challenge of the United States where sort of everything was 
done within NOAA. EPIC is now putting a lot of the development 
of the models, a lot of the innovation capabilities out into 
the community, which is going to leverage the private sector, 
the academic sector. I'm not sure about nonprofits but for sure 
those sectors. And so that really, again, gives us this force 
multiplier effect.
     So research is incredibly important, but I think also the 
transition and experimentation of research activities in the 
operational context, which is one of the things we do at Norman 
really well, the so-called hazardous weather testbed where we 
have researchers sitting right next to--literally right next to 
operational forecasters testing new technologies. EPIC will 
allow us to do that.
     So I think the NOAA budget cuts in OAR, again, it's an 
issue of priorities, but I think that the thing is we're 
leveraging the tremendous asset of these other communities, 
including NSF funding and NASA and places like that, which EPIC 
is this multifaceted, you know, multisector part of the 
enterprise.
     And one of the things that we've been tasked to do I think 
by the Weather Act is--in OSTP is to look at restructuring the 
weather enterprise administratively, and we're working actively 
on that now. I think we'll get a lot of efficiency and a lot of 
focus and still be able to do the great things you're talking 
about.
     Ms. Horn. And just to echo--wow, that's loud. Congressman 
Foster's concerns about making sure that we have sufficient 
research capabilities where--on the cutting edge of developing 
these technologies where there is yet----
     Dr. Droegemeier. Right.
     Ms. Horn [continuing]. To be a commercial sector that is--
that there's a----
     Dr. Droegemeier. Right.
     Ms. Horn [continuing]. There's an interest and an 
ability----
     Dr. Droegemeier. Right.
     Ms. Horn [continuing]. To do that.
     Turning my attention now just in the last minute or so to 
space research and development and OSTP's place in that, one of 
the issues that we have addressed on the Space and Aeronautics 
Subcommittee and on this Committee as a whole is the needs 
around space weather and the implications for that. So I'd like 
for you to speak just briefly on what--if you're working on 
anything or planning to develop any space-related strategies, 
especially around space weather?
     Dr. Droegemeier. Right. That's a great question. We 
actually have a subcommittee in the National Science and 
Technology Council on space weather and security and hazards, 
and it includes things like near-Earth objects and so on. So I 
think it was about a year ago, it was sometime last year, we 
released the Space Weather Strategy and Action Plan, and so 
we're now executing on that. We have working groups to look at 
implementing that and also working internationally because of 
course space weather is both a national and an international 
thing. It also has implications for national security in terms 
of electromagnetic pulses. It has some similar things there.
     So I'd say we're awfully active in that arena, and I'd be 
happy to sort of do a deeper dive on that with you because it's 
really important. The challenge of space weather is it's not 
top of mind to a lot of people, but if something bad happens, 
it's a big deal.
     Ms. Horn. Exactly. And the national security, the economic 
consequences, and so many other things on down the line. And of 
course near-Earth objects also incredibly important----
     Dr. Droegemeier. Right.
     Ms. Horn [continuing]. With our reliance on space 
technology. I'd like to dig into this a little bit further----
     Dr. Droegemeier. Sure.
     Ms. Horn [continuing]. But I'm over my time, so I yield 
back. Thank you.
     Chairwoman Johnson. Thank you very much. Mr. Casten.
     Mr. Casten. Thank you, Madam Chair. Thank you so much for 
coming.
     Dr. Droegemeier, in your opening testimony you said, 
quote, ``We are committed to taking the wise and necessary 
steps to ensure that America remains the world leader in 
science and technology research and education for generations 
to come.'' And I think you went on to say that the--talk about 
the importance of government research as a catalyst for 
innovation and boasted about the budget proposal's 6 percent 
increase in funding over last year's proposal. It would take a 
particularly sadistic boss to cut someone's salary by 50 
percent and then give them a 6 percent raise and ask for praise 
for the raise. That's essentially what the budget does. It's a 
16 percent cut in DOE R&D funding, 35 percent cut in EPA R&D. 
ARPA-E is totally eliminated. The programs that are doing 
critical work to decarbonize the economy and stem the climate 
crisis are being gutted. I'm not impressed with 6 percent.
     And you're sitting here telling us that the President is 
championing the things that he is destroying. To totally 
misquote Shakira, the math don't lie, and it is imperative that 
our lips don't either.
     Having said that, I want to shift to a separate matter. I 
applaud the focus on innovation. I am all for new technology. 
But there is no meaningful spend here on technology deployment. 
On a proportional basis deployment, there--it's the last D in 
RD&D (research, design, and development) is way down. And the--
there was a recent International Monetary Fund analysis that 
said that the United States subsidizes the fossil fuel industry 
to the tune of $550 billion a year. That is almost a TARP 
(Troubled Asset Relief Program) per year.
     So my first question is, is it the Administration's 
position that distorting capital markets to the tune of $550 
billion a year does not interfere with the efficient allocation 
of capital in those markets?
     Dr. Droegemeier. Well, I don't know that I'm qualified to 
speak to that from an economics point of view, but I can tell 
you that----
     Mr. Casten. Well, hang on. I mean----
     Dr. Droegemeier. OK.
     Mr. Casten [continuing]. Just as me--as an individual 
because, I mean, I can tell you I spent 20 years in the energy 
industry. Five hundred and fifty billion dollars a year really 
does distort those markets. If you just want to stipulate 
that's true, that's OK, but I can't imagine we need an 
economics degree to say that if you throw $550 billion at 
something, you might actually change things. Put another way, 
are you up for taking the subsidies away?
     Dr. Droegemeier. Subsidies for energy?
     Mr. Casten. The $550 billion that the IMF has said is out 
there.
     Dr. Droegemeier. Well, I don't really have--you know, I 
haven't thought about that deeply, so I'm happy to do that, but 
let me do address one of the points you made, though, in terms 
of tech development. I think it's--this goes back to Vannevar 
Bush and post-World War II. You know, it's very important for 
the Federal Government to invest in basic research. We all know 
that that's the seed corn of innovation. We use different 
terms, but it's very critical. But if you look at the 
experimental development, the fund that you talked about today, 
85 percent of that is funded by industry and 13 percent by the 
Federal Government. That seems to me to be the right balance 
because we want the----
     Mr. Casten. I'm asking a different question.
     Dr. Droegemeier. OK.
     Mr. Casten. If you distort markets as much as the 
International Monetary Fund says our markets are being 
distorted, we cannot fall back on this lazy assumption that 
efficient markets will allocate the capital because markets 
ain't efficient when they're being distorted that much. That is 
my concern. And, you know, basically I don't expect you to 
opine on whether we'll take these barriers away, but----
     Dr. Droegemeier. Yes.
     Mr. Casten [continuing]. If we are not going to take those 
barriers away, then why are we--why bother innovating? Because 
all you're doing is putting more technologies at the back of 
the line that's not moving. We have got to be focused on 
deployment.
     And I want to maybe shift from there that I have a concern 
that this Administration continues to hide behind R&D as a 
response to the climate crisis. I am glad to see that people 
are now embarrassed to stand up in public and deny that climate 
science is real as an excuse for inaction, but when we have all 
these distortions in the market, when we know that the markets 
actually like cheap energy, you know, and if you--if you build 
a power plant that doesn't have any marginal fuel costs, it's 
cheap, drives power costs down, markets want it.
     But when we know that we need to solve these deployment 
problems, shifting to a commitment to say, well, we can't move 
forward because--until the technology is ready is changing the 
excuse to delay. We don't have time to delay. And we can't 
celebrate an excuse to delay just because this excuse is 
somewhat more palatable than the last excuse that said we're 
going to deny climate science.
     So what is the Administration going to do to decarbonize 
our economy now with technology that exists today?
     Dr. Droegemeier. Well, I think there's a couple of things. 
One of the technologies that's really not a technology is 
trees, right? And the President committed at Davos to join the 
Trillion Trees Initiative. But I--again, I just got back from 
DOE the other day looking at tremendous work that they're doing 
in clean energy from the Coal FIRST program that they have 
looking to build coal plants that are more efficient, that 
actually get to emissions levels that are equivalent to actual 
natural gas plants----
     Mr. Casten. Look, I'm out of time but there isn't a coal 
plant----
     Dr. Droegemeier. Yes.
     Mr. Casten [continuing]. In the world today that's 
economic. If you add more capital costs and operating costs to 
the plant, you're just making them less economic. We have to 
stop delaying. That is an excuse. I yield back.
     Chairwoman Johnson. Thank you very much. Ms. Stevens.
     Ms. Stevens. Thank you, Madam Chair. And nice to see you, 
Dr. Droegemeier. Thank you for your courage and your 
commitment. As the Subcommittee Chair of Research and 
Technology, we know we have a dotted line to the White House 
Office of Science and Technology Policy. I've had a lot of joy 
over the years of working with OSTP and seeing your work in 
action. We're delighted that the PCAST (President's Council of 
Advisors on Science and Technology) has been revived and that 
new members have been added.
     I wanted to ask about PCAST. Are you working with them 
pretty closely in your role?
     Dr. Droegemeier. Oh, yeah.
     Ms. Stevens. You're overseeing and you're----
     Dr. Droegemeier. Yes.
     Ms. Stevens [continuing]. A member of PCAST? And have they 
been involved in the budget process at all?
     Dr. Droegemeier. No.
     Ms. Stevens. OK.
     Dr. Droegemeier. No.
     Ms. Stevens. Yes. And I didn't know if they were weighing 
in because we've got--well, we got Dow and S.C. Johnson and 
H.P. labs. We even have--I find this so interesting--a Chief of 
Operations and Technology Officer from Bank of America. 
Cybersecurity? Is----
     Dr. Droegemeier. Partly that, but what is fabulous about 
her is that she brings a completely different perspective to 
science.
     Ms. Stevens. Yes.
     Dr. Droegemeier. You know, she doesn't think necessarily 
like a scientist does, and that's refreshing. So she'll bring 
up ideas and it's like, wow, I wouldn't have thought of that, 
you know? So it's been my experience in serving in boards over 
the years that when you bring folks in from a completely 
different sector, they add extraordinary value and 
perspective----
     Ms. Stevens. Yes.
     Dr. Droegemeier [continuing]. That you wouldn't have 
otherwise.
     Ms. Stevens. Diversity of viewpoints and women.
     Dr. Droegemeier. Yes. Here, here.
     Ms. Stevens. We love that. That's great, yes. Well, we 
look forward to maybe having them weigh in and, you know, as--
particularly as we're juggling some of this because I know some 
of these agents--or these representatives care deeply about 
these programs that we've been talking about today. Obviously, 
ARPA-E is celebrated on both sides of the aisle. I believe 
we'll do our job in Congress and recommit to funding it, 
recommit to prioritizing climate. The Manufacturing Extension 
Partnership centers, they're essential. And the voice that you 
all provide is important as well, and we're glad to be seeing, 
I think, a commitment to basic research funding as a whole of 
Committee. And I think we've heard you on that today. We're 
going to give the message back to the White House that we would 
like to see these programs fully funded, and we'd like to also 
maybe ask PCAST to weigh in, too, on some of their broader 
visions and maybe even spend some time together, you know, if 
you'd be open to a meeting along those lines.
     Scientific integrity has been a big topic of conversation 
in this Committee. And we've had a couple of hearings about it. 
I--you might be aware of the GAO (Government Accountability 
Office) study----
     Dr. Droegemeier. Yes.
     Ms. Stevens [continuing]. That came out, and they 
reference a 2018 survey conducted by the Union of Concerned 
Scientists that found that, you know, under this current 
Administration some scientists have experienced some censorship 
of their work and some of it's been--it's really unfortunate. 
It's related to climate change, and we don't know why they're 
doing that. It seems like it's undue political influence. So 
are you doing anything about this in your role with OSTP to 
make sure we're not muzzling these voices?
     Dr. Droegemeier. So this came up in my hearing last year, 
and, you know, I absolutely believe that science has to speak 
for itself. You know, I don't believe in political interference 
in science. When policy is made--science and policy are very 
different of course--but the science itself has to be 
unfettered. Absolutely, I'm committed to that. In fact, in 2010 
OSTP issued a memo in fact that the GAO study that came out in 
April referenced, and it looked at nine agencies, you know, how 
well are you living up to the principles that OSTP put forward 
there, and so on. And so I'm absolutely completely committed to 
that.
     And we are looking at integrity in the context of JCORE in 
terms of research integrity, that sort of thing, which is 
different than what you're talking about, but I'll make the 
same offer here that I did last year, and that is if you want 
to engage on that topic, we're always happy to look at that 
issue. But I'm glad that the GAO did that study. I thought it 
was a very important study.
     Ms. Stevens. Yes, it was--look, it's a useful study and, 
you know, I mean, censorship is a big word. We like to expect 
best intentions. On the other hand, you know, we kind of have 
this climate crisis that is going unaddressed, and we want to 
make sure that we have the adaptations and the utilization of 
all our great technologies. And so I'd love to encourage you--
and I don't know in terms of, you know, how much you're meeting 
with cabinet officials or different--you know, the--there's 
Council of Economic Advisers, there's the Council on 
Environmental Quality----
     Dr. Droegemeier. Right.
     Ms. Stevens [continuing]. And things along those lines 
that give you maybe conduits to talking to people in the 
agencies as well. I'm someone who worked in a Federal agency as 
well, so I think the more that they can break down those 
interagency barriers----
     Dr. Droegemeier. Yes.
     Ms. Stevens [continuing]. And have those conversations 
with you and, you know, look, bureaucracies are bureaucracies, 
but on the other hand, the pursuit of truth is very, very 
important for us here. And maybe the PCAST board as well can be 
helpful with that. So I don't know if----
     Dr. Droegemeier. Yes.
     Ms. Stevens [continuing]. You're doing anything along 
those lines.
     Dr. Droegemeier. We have great relationships with the 
agencies. I talk to the agency heads all the time and the Under 
Secretaries and stuff, really, really close working 
relationship.
     But I really appreciate you mentioning PCAST. It's 
important. And, you know, it got started late enough in the 
first term that we decided to sort of bring forward some things 
we wanted them to work on so they could do their own thing but 
we thought--really focus on AI, quantum, industries of the 
future----
     Ms. Stevens. Right.
     Dr. Droegemeier [continuing]. Workforce, that kind of 
stuff. And they are running headlong into that.
     The other cool thing is two things I just mentioned 
quickly. We've done the first-ever joint meeting between them 
and the National Science Board, which I think is really great--
--
     Ms. Stevens. Fabulous.
     Dr. Droegemeier [continuing]. Because they're very 
different organizations but with the same goals in mind. We're 
also going to be launching a committee of undergraduate 
students, graduate students, postdocs, and early career 
nonacademic professionals in PCAST, the subcommittee, because, 
you know, they own the future, right? And their voice needs to 
be at the table. So we were talking about faculty in terms of 
research security. These young folks who have brilliant ideas, 
they've got great creative energy, we want them at the table 
thinking about policy now. So we're very excited. It's never 
been done before, so we're super excited about it.
     Ms. Stevens. Well, let's commit to spending some time with 
the subcommittee----
     Dr. Droegemeier. Yes, sure.
     Ms. Stevens. --PCAST. This conversation----
     Dr. Droegemeier. Please do.
     Ms. Stevens [continuing]. Could certainly continue----
     Dr. Droegemeier. Sure.
     Ms. Stevens [continuing]. Especially along the lines of 
quantum. Thank you.
     Dr. Droegemeier. I would love to do that, thank you.
     Ms. Stevens. I'm over. I'll yield back, Madam Chair. Thank 
you. Thanks, Doctor.
     Dr. Droegemeier. My fault.
     Chairwoman Johnson. Thank you. Mr. Tonko.
     Mr. Tonko. Thank you, Madam Chair, and thank you for the 
opportunity here to share some thoughts with Dr. Droegemeier. 
And thank you for your leadership, sir.
     Dr. Droegemeier. Yes, sir.
     Mr. Tonko. I very much enjoyed our earlier conversation on 
scientific integrity.
     Dr. Droegemeier. Yes.
     Mr. Tonko. And I enjoyed hearing what you stated to 
Representative Stevens about juxtapositioning of politics and 
science. Unfortunately, many of my colleagues have told me that 
they worry that supporting strong scientific integrity policies 
can come off as a partisan issue or an attack on the current 
Administration. As an engineer with a deep respect for science, 
Federal scientific integrity standards have been a concern of 
mine for many years predating the current Administration.
     Here in the Science Committee Ranking Member Lucas and 
Research Committee Ranking Member Baird worked with me to find 
common ground on scientific integrity legislation that passed 
out of the Committee in a bipartisan manner. Scientific 
integrity is a long-standing concern that transcends any one 
party or political Administration. In fact, I began working on 
the Scientific Integrity Act in the summer of 2016 when we had 
a Democratic Administration. And the fact remains whether a 
Democrat or a Republican sits in the Speaker's Chair or the 
Oval Office, we need strong scientific integrity policies.
     So, Dr. Droegemeier, in your view should supporting strong 
scientific integrity policies be a partisan issue?
     Dr. Droegemeier. Oh, no, sir.
     Mr. Tonko. And during our Science Committee legislative 
hearing on the Scientific Integrity Act, both Republican and 
Democratic witnesses spoke of the need for strong scientific 
integrity policies that transcend politics or partisanship. 
So--and, Dr. Roger Pielke, the Republican witness, agreed 
calling on Congress, and I quote, ``quickly and in bipartisan 
fashion pass scientific integrity legislation,'' close quote.
     As you know, the Scientific Integrity Act, H.R. 1709, 
would establish consistent scientific integrity policies across 
all of our U.S. agencies. Do you support the goals of the 
legislation and believe that strong scientific integrity 
policies are indeed important?
     Dr. Droegemeier. Well, I'd have to look at the 
legislation, sir, but scientific integrity to me, if we're 
talking about having our researchers do it, we need it 
everywhere. It's not one place that it exists and another place 
that it does not, so I don't want to give an official position 
on it, but I----
     Mr. Tonko. How about the goals of the legislation? Do you 
agree with them?
     Dr. Droegemeier. It's been a while since I read it. I'm 
sure I have read it, but, you know, if the goal is scientific 
integrity, I'm all for that, yes, absolutely. I'd be happy to 
get back to you more specifically if that would be helpful.
     Mr. Tonko. Thank you. It would be.
     If Congress passes this bill and the President signs it 
into law, would you support this work to have strong scientific 
integrity policies across all agencies?
     Dr. Droegemeier. I think we absolutely need integrity 
across all agencies to be consistent with our American values 
and what we're asking our own researchers to do, so absolutely.
     Mr. Tonko. Well, and we live in a science-driven world, so 
it only makes sense to incorporate that into our policy 
thinking but to leave it as pure science.
     Dr. Droegemeier, last year, the President issued an 
executive order to all Federal agencies to significantly reduce 
their number of Federal Advisory Committees commonly referred 
to as FACAs. The National Science Foundation determined that 
each of its FACAs were essential for the proper stewardship of 
its highly technical research programs and thus sought and 
received an exemption to this order. But my understanding is 
that the DOE's Office of Science sought no such exemption and 
is required by the Department to make recommendations regarding 
the elimination of several of its FACAs. Is this correct?
     Dr. Droegemeier. I'm familiar with the NSF situation, not 
with DOE. I wasn't aware that they had not requested any 
exemptions. I do note that past Administrations have done the 
same thing in terms of FACA committees, asked to reduce by like 
1/3, both Republican and Democrat Administrations.
     Mr. Tonko. Well, then why do you believe that some of the 
Office of Science's FACAs are no longer of value to guide its 
advanced research activities?
     Dr. Droegemeier. I wasn't aware that they actually hadn't 
sought a dispensation from removal, so I'd have to talk to Paul 
Dabbar about that.
     Mr. Tonko. And how is cutting so many of our critical 
Federal agency research investments in half or more going to 
improve American innovation?
     Dr. Droegemeier. I think the key thing here, Congressman, 
is to really focus and prioritize and realize that it's not 
just the Federal Government, it's actually the private sector, 
nonprofits, and so on. We get together, we innovate. Six 
hundred billion dollars is what was expended I believe probably 
this year, so I think the key thing is working together to 
leverage our assets. And the Federal Government absolutely has 
a critical role to play in funding basic research, no question 
about it. That's why the President is proposing $142.2 billion.
     Mr. Tonko. Well, I can understand leveraging additional 
private-sector investment, but why would we reduce the 
commitment of the Federal--I mean, that means all the more 
private-sector investment we could get if we don't rollback 
that Federal commitment.
     Dr. Droegemeier. Well, I think, again, the question is 
what is our priority, and the lesser priorities don't get as 
much funding. We really put our eggs in the priorities which 
are AI and quantum for industries of the future and certainly 
things like nuclear energy and other activities that are 
expressed in the budget, yes.
     Mr. Tonko. It seems to me that the agenda for research is 
steep and that any rollback from Federal commitment as a 
partnership to leverage those private-sector dollars is not 
good sense.
     In 2018 the National Institute of Standards and Technology 
released a green paper with a number of recommendations for 
improving technology transfer from Federal labs to the private 
sector. What is the status of implementing those 
recommendations?
     Dr. Droegemeier. I'd have to check with Walt Copan, but 
they're moving forward with it, and I think it was--the thing 
is, it wasn't a specific set of activities that were going to 
be done. It was a set of broad recommendations for America 
essentially. And I think a lot of them in terms of intellectual 
property were really well-structured. So I believe they're--
they are moving forward. We actually have somebody at OSTP that 
works on that. I haven't asked them specifically for an update 
recently, but I certainly could do that and get back to you.
     Mr. Tonko. Thank you. Madam Chair, I exceeded my time, so 
I yield back. I'm sorry.
     Chairwoman Johnson. That completes our round of 
questioning, but before we bring this hearing to a close, I'd 
like to thank you, Dr. Droegemeier, for testifying before the 
Committee and say that we are pleased to be working with you.
     The record will remain open for 2 weeks for additional 
statements from members and for any additional questions that 
the Committee may want to ask the witness. The witness is 
excused----
     Dr. Droegemeier. Thank you.
     Chairwoman Johnson [continuing]. And the hearing is 
adjourned.
     [Whereupon, at 12:03 p.m., the Committee was adjourned.]

                               Appendix I

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                              Appendix II

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
